APPENDIX

1a
APPENDIX A
_____________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________
JOHN DOE, I; JOHN DOE, II; JOHN DOE, III;
JOHN DOE IV; JOHN DOE V; AND JOHN DOE VI,
each individually and on behalf of
proposed class members,
Plaintiffs-Appellants.
v.
NESTLE, S.A.; NESTLE USA, INC.; NESTLE IVORY
COAST; CARGILL INCORPORATED COMPANY;
CARGILL COCOA; CARGILL WEST AFRICA, S.A.;
ARCHER DANIELS MIDLAND COMPANY,
Defendants-Appellees.
_____________
No. 17-55435
D.C. No. 2:05-cv-05133-SVW-MRW
_____________
ORDER AND AMENDED OPINION
_____________
Appeal from the United States District Court
for the Central District of California
STEPHEN V. WILSON, District Judge, Presiding

2a
Argued and Submitted June 7, 2018
Pasadena, California
Filed October 23, 2018
Amended July 5, 2019
Before: DOROTHY W. NELSON and MORGAN CHRISTEN,
Circuit Judges, and EDWARD F. SHEA,* District
Judge.
Order;
Dissent to Order by Judge BENNETT;
Opinion by Judge D.W. NELSON;
Concurrence by Judge SHEA
_____________
SUMMARY**
_____________
Alien Tort Statute
The panel filed (1) an order amending its opinion,
denying a petition for panel rehearing, and denying
on behalf of the court a petition for rehearing en
banc; and (2) an amended opinion reversing the
district court’s dismissal of claims of aiding and
abetting slave labor in violation of the Alien Tort
Statute.

*
The Honorable Edward F. Shea, United States District
Judge for the Eastern District of Washington, sitting by
designation.
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
In its amended opinion, the panel reversed the
district court’s dismissal, which was based on the
district court’s conclusion that the complaint, brought
by former child slaves who were forced to work on
cocoa farms in the Ivory Coast against manufacturers,
purchasers, and retail sellers of cocoa beans, sought
an impermissible extraterritorial application of the
Alien Tort Statute. In a two-step analysis, the panel
concluded that the ATS is not extraterritorial, but,
looking to the statute’s focus, the complaint alleged a
domestic application of the statute in defendants’
funding of child slavery practices.
The panel
concluded that plaintiffs’ allegations painted a picture
of overseas slave labor that defendants perpetuated
from headquarters in the United States, and this
narrow set of domestic conduct was relevant to the
ATS’s focus. The panel remanded to allow plaintiffs to
amend their complaint to specify, in light of Jesner v.
Arab Bank, 138 S. Ct. 1386 (2018), whether aiding
and abetting conduct that took place in the United
States was relevant to the domestic corporations
named as defendants. The panel held that plaintiffs
had Article III standing to bring their claims because
they alleged concrete and redressable injury that was
fairly traceable to the challenged conduct of one
defendant, and their allegations against another
defendant were sufficient to allow a final opportunity
to replead.
District Judge Shea concurred in the result.
Judge Bennett, joined by Judges Bybee, Callahan,
Bea, Ikuta, and R. Nelson; and joined by Judges M.
Smith and Bade as to Part II, dissented from the

4a
denial of rehearing en banc. In Part I, Judge Bennett
wrote that, after Jesner, corporations, foreign or
domestic, are not proper ATS defendants. In Part II,
Judge Bennett wrote that plaintiffs’ claims were
impermissibly exterritorial because the allegations in
the complaint were clear that all the relevant
misconduct took place in Côte d’Ivoire, not the United
States.
COUNSEL
Paul L. Hoffman (argued), John Washington, and
Catherine Sweetser, Schonbrun Seplow Harris &
Hoffman LLP, Los Angeles, California; Terrence P.
Collingsworth,
International
Human
Rights
Advocates, Washington, D.C.; for PlaintiffsAppellants.
Theodore J. Boutrous, Jr. (argued), Abbey Hudson,
Matthew A. Hoffman, and Perlette Michèle Jura,
Gibson Dunn & Crutcher LLP, Los Angeles,
California; Christopher B. Leach and Theodore B.
Olson, Gibson Dunn & Crutcher LLP, Washington,
D.C.; Colleen Sinzdak, David M. Foster, Craig A.
Hoover, and Neal Kumar Katyal, Hogan Lovells US
LLP, Washington, D.C.; for Defendant-Appellee Nestlé
USA, Inc.
Andrew John Pincus (argued) and Kevin S. Ranlett,
Mayer Brown LLP, Washington, D.C.; Lee H. Rubin,
Mayer Brown LLP, Mayer Brown LLP, Palo Alto,
California;
for
Defendant-Appellee
Cargill
Incorporated.

5a
Marc B. Robertson and Richard A. Stamp,
Washington Legal Foundation, Washington, D.C., for
Amicus Curiae Washington Legal Foundation.
ORDER
The Opinion filed on October 23, 2018, is amended
as follows:
IV. Plaintiffs Have Standing to Bring Their Claims
Defendants argue that plaintiffs lack
Article III standing to bring their claims. To
have standing, plaintiffs must allege “[(1)] a
concrete and particularized injury [(2)] that is
fairly traceable to the challenged conduct, [(3)]
and is likely to be redressed by a favorable
judicial decision.” Consumer Fin. Prot. Bureau
v. Gordon, 819 F.3d 1179, 1187 (9th Cir. 2016),
cert. denied, (quoting Hollingsworth v. Perry,
570 U.S. 693, 704 (2013)).
Plaintiffs easily satisfy the first and third
requirements. Defendants do not dispute that
plaintiffs suffered concrete injury by being
abused and held as child slaves. In addition,
plaintiffs’ injuries are redressable because
when “one private party is injured by another,
the injury can be redressed in at least two
ways: by awarding compensatory damages or
by imposing a sanction on the wrongdoer that
will minimize the risk that the harm-causing
conduct will be repeated.” Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 127 (1998).

6a
Plaintiffs also satisfy the traceability
requirement as to Cargill because they raise
sufficiently specific allegations regarding
Cargill’s involvement in farms that rely on
child slavery.
Baloco ex rel. Tapia v.
Drummond Co., 640 F.3d 1338, 1343 (11th Cir.
2011); Bennett v. Spear, 520 U.S. 154, 169
(1997) (Article III traceability requirement
“does not exclude injury produced by
determinative or coercive effect upon the action
of someone else.”).
Plaintiffs’ allegations
against Nestle are far less clear, though part of
the difficulty is plaintiffs’ reliance on collective
allegations against all or at least multiple
defendants. Notwithstanding this deficiency,
the allegations are sufficient to at least allow
plaintiffs a final opportunity to replead. On
remand, plaintiffs must eliminate the
allegations against foreign defendants and
specifically identify the culpable conduct
attributable to individual domestic defendants.
With the Amended Opinion, a majority of the panel
voted to deny the petition for panel rehearing.
Judges D. Nelson and Christen voted to deny the
petition for panel rehearing, and Judge Shea voted
to grant the petition for panel rehearing.
Judge Christen voted to deny the petition for
rehearing en banc, and Judge D. Nelson so
recommended. Judge Shea recommended granting
the petition for rehearing en banc. The full court was
advised of the petition for rehearing en banc. A judge
of the court requested a vote on whether to rehear

7a
the matter en banc. The matter failed to receive a
majority of the votes of non-recused active judges in
favor of en banc consideration. Fed. R. App. P. 35.
No further petitions for rehearing will be
entertained.
The petition for rehearing and petition for
rehearing en banc are DENIED. Judge Bennett’s
dissent from the denial of rehearing en banc is filed
concurrently herewith. Judges Wardlaw, Watford,
Owens, Friedland, Miller, and Collins did not
participate in the deliberations or vote in this case.
_____________

BENNETT, Circuit Judge, with whom BYBEE,
CALLAHAN, BEA, IKUTA, and R. NELSON, Circuit
Judges, join, and with whom M. SMITH and BADE,
Circuit Judges, join as to Part II, dissenting from the
denial of rehearing en banc:
The Supreme Court has told us that the Alien Tort
Statute (“ATS”) must be narrowly construed and
sparingly applied, in line with its original purpose: “to
help the United States avoid diplomatic friction” by
providing “a forum for adjudicating that ‘narrow set of
violations of the law of nations’ that, if left
unaddressed, ‘threaten[ed] serious consequences’ for
the United States.” Jesner v. Arab Bank, PLC,
138 S. Ct. 1386, 1410 (2018) (Alito, J., concurring)
(alteration in original) (quoting Sosa v. AlvarezMachain, 542 U.S. 692, 715 (2004)). The Court has
given us a roadmap to determine whether artificial
entities like corporations can be liable for ATS

8a
violations. And the Court has made it equally clear
that the ATS reaches only domestic conduct—where a
claim “seek[s] relief for violations of the law of nations
occurring outside the United States,” the claim is
“barred.”
Kiobel v. Royal Dutch Petroleum Co.
(Kiobel II), 569 U.S. 108, 124 (2013). Violations of the
law of nations—like genocide, slavery, and piracy—are
horrific. But in its zeal to sanction alleged violators,
the panel majority has ignored the Court’s ATS
roadmap. First, the panel majority has failed to
properly analyze under Jesner whether a claim against
these corporate defendants may proceed. And second,
the panel majority has compounded that error by
allowing this case to move forward notwithstanding
that Defendants’ alleged actionable conduct took place
almost entirely abroad, turning the presumption
against extraterritoriality on its head.
Jesner changed the standard by which we evaluate
whether a class of defendants is amenable to suit
under the ATS. Corporations are no longer viable
ATS defendants under either step one or step two of
the two-step approach the Court announced in Sosa,
as applied in Jesner. The panel majority, however,
fails to apply Jesner’s controlling analysis and
applies an incorrect theory of ATS corporate liability
even as the Supreme Court suggests that we reach
the opposite conclusion.
The panel majority also all but ignores the Court’s
instruction that an ATS claim must “touch and
concern the territory of the United States . . . with
sufficient force to displace the presumption against
extraterritorial application” of the ATS. Kiobel II,

9a
569 U.S. at 124–25. Plaintiffs’ allegations—based
almost entirely on violations of the law of nations
that allegedly occurred in Africa—are wholly
insufficient to state a claim.
The Supreme Court has instructed that we must
“exercise ‘great caution’ before recognizing new forms
of liability under the ATS.” Jesner, 138 S. Ct. at 1403
(quoting Sosa, 542 U.S. at 728). We should have
heeded this instruction and taken this case en banc
to hold that these corporations may not be sued
under the ATS and to make clear that the
presumption against extraterritoriality still applies
in the Ninth Circuit.1 Thus, I respectfully dissent
from the denial of rehearing en banc.
1

Although not within the scope of Defendants’ petitions for
rehearing en banc, I believe that it was error for this court to
conclude in Doe I v. Nestle USA, Inc. (Nestle I), 766 F.3d 1013
(9th Cir. 2014) that aiding-and-abetting liability is available
under the ATS. As the government previously argued in
another ATS case, “the adoption of aiding and abetting liability
is a ‘vast expansion of federal law’ that federal courts must
eschew in the absence ‘of congressional direction to do so.’”
Brief for the United States as Amicus Curiae in Support of
Petitioners, at 8, Am. Isuzu Motors, Inc. v. Ntsebeza, 553 U.S.
1028 (2008) (No. 07-919), 2008 WL 408389, at *8 (hereinafter
“Br. for the U.S. as Amicus Curiae”) (quoting Cent. Bank of
Denver, N.A. v. First Interstate Bank of Denver, N.A., 511 U.S.
464, 183 (1994)). Thus, the fact that the ATS provides for
primary liability does not, in the absence of further
congressional action, create secondary liability. See Cent.
Bank, 511 U.S. at 182 (“[W]hen Congress enacts a statute
under which a person may sue or recover damages from a
private defendant for the defendant’s violation of some
statutory norm, there is no general presumption that the
plaintiff may also sue aiders and abettors.”).

10a
I.

After Jesner, Corporations Are Not Proper
ATS Defendants.

Just last term, the Supreme Court held in Jesner
that the ATS’s jurisdictional grant does not extend to
foreign corporations. 138 S. Ct. at 1407. This appeal
presents the question that the Supreme Court
expressly left open in Jesner: can corporations ever be
proper ATS defendants? The panel majority avoided
this issue by relying on discredited circuit precedent.
Applying
the
correct
standard
post-Jesner,
corporations (foreign or not) are clearly not proper ATS
defendants. It was error for the panel majority to hold
otherwise, and we should have corrected that error en
banc.
To determine whether to recognize a cause of
action under the ATS, we look to Sosa, which
involves a “two-step process.” Jesner, 138 S. Ct. at
1409 (Alito, J., concurring). “First, a court must
determine whether the particular international-law
norm alleged to have been violated is ‘accepted by
the civilized world and defined with a specificity
comparable to the features of the 18th-century
paradigms.’” Id. at 1419 (Sotomayor, J., dissenting)
(quoting Sosa, 542 U.S. at 725). “Second, if that
Just as Congress has not extended the ATS to corporations
(and, in fact, expressly limited the Torture Victim Protection
Act to individual liability, see infra Part I.C), it has not created
ATS aiding-and-abetting liability either. Courts, including our
own, that have permitted plaintiffs to bring claims for aidingand-abetting ATS violations have, in the words of the Solicitor
General, “veered far off course under the ATS.” Br. for the U.S.
as Amicus Curiae at 10.

11a
threshold hurdle is satisfied, a court should consider
whether allowing a particular case to proceed is an
appropriate exercise of judicial discretion.” Id. at
1420. Corporate liability fails at both steps.
In Sarei v. Rio Tinto, PLC, 671 F.3d 736, 760 (9th
Cir. 2011) (en banc), vacated and remanded, 569 U.S.
945 (2013), we held that if a norm of conduct is
sufficiently established to give rise to ATS liability, the
only relevant liability question is whether the
defendant is capable of violating the norm. Although
the Supreme Court vacated Sarei in light of Kiobel II,
we doubled down on Sarei’s erroneous reasoning in
Doe I v. Nestle USA, Inc. (Nestle I), 766 F.3d 1013 (9th
Cir. 2014), when we held that where there exists a
“universal and absolute” norm of conduct that is
“applicable to ‘all actors,’” any accused violator is
subject to jurisdiction of the United States courts
under the ATS. Id. at 1022 (quoting Sarei, 671 F.3d
at 760). As far as I am aware, we have never
analyzed the corporate liability issue under Sosa step
two. The panel majority has neglected to do so here.
Judge Bea persuasively explained why the
Sarei/Nestle I approach to corporate liability was
inconsistent with established Supreme Court
precedent, see Doe I v. Nestle USA, Inc., 788 F.3d 946
(9th Cir. 2015) (Bea, J., dissenting from the denial of
rehearing en banc) (“Nestle I Dissental”), and I do not
repeat those arguments here. After Jesner, though,
there should be no serious doubt that our court’s
approach to this issue is incomplete, and the en banc
court should have stepped in to correct the panel
majority’s failing.

12a
A.

Nestle I is no longer good law on the
corporate-liability issue.

In holding that foreign corporate defendants are
categorically not amenable to suit under the ATS,
Jesner was explicit that federal courts can and
must—contrary to Nestle I—determine whether
certain categories of defendant are beyond the reach
of an ATS claim. See Jesner, 138 S. Ct. at 1402–03.
The panel majority’s application of Nestle I to the
corporate defendants here, post-Jesner, was at best
incomplete and at worst simply wrong. In addition,
while Jesner’s holding was limited by its terms to
foreign corporations, five justices in Jesner authored
or joined opinions that called into serious doubt the
validity of ATS claims against domestic corporations.
1.

We should have taken this case en
banc to expressly reject Nestle I’s
approach to corporate liability
questions.

First, Jesner directly conflicts with the Nestle I
approach—in particular, our holding that “there is
no categorical rule of corporate immunity or liability”
under the ATS. Nestle I, 766 F.3d at 1022 (citing
Sarei, 671 F.3d at 747). In Jesner, the Court
explained that its “general reluctance to extend
judicially created private rights of action . . . extends
to the question whether the courts should exercise
the judicial authority to mandate a rule that imposes
liability upon artificial entities like corporations.”
Jesner, 138 S. Ct. at 1402–03. Justice Kennedy’s
opinion for the Court answered that question in the

13a
negative for foreign corporations, and in the process
invited the lower courts to consider whether the
question should be answered similarly as to domestic
corporations. See id. at 1402.
Here, the panel majority correctly acknowledged
that Jesner abrogated Nestle I to the extent that
Nestle I permitted an ATS suit against foreign
corporate defendants. Doe v. Nestle, S.A. (Nestle II),
906 F.3d 1120, 1124 (9th Cir. 2018). But the panel
majority’s subsequent conclusion that Jesner left
undisturbed this court’s treatment of domestic
corporations under the ATS, id., was incorrect.
Jesner’s holding, to be sure, was limited to foreign
corporations, but by acknowledging the existence of
categorical rules restricting the ATS liability of certain
classes of corporate actors, Jesner requires us to
discard the approach we adopted in Sarei (and reembraced in Nestle I), which focused entirely on the
question whether a norm of conduct is sufficiently
universal to support an ATS claim. Jesner thus
confirmed Judge Bea’s dissental’s conclusion in
Nestle I: “there must be a meaningful inquiry—not a
mere labeling of norms as ‘categorical’”—into
whether the ATS supports liability against a given
defendant. Nestle I Dissental, 788 F.3d at 955. Not
only did the panel majority fail to conduct a
meaningful inquiry into corporate liability, it
inexplicably failed to conduct any inquiry at all:
“Jesner did not eliminate all corporate liability under
the ATS, and we therefore continue to follow Nestle
I’s holding as applied to domestic corporations.”
Nestle II, 906 F.3d at 1124. The en banc court
should have corrected that very clear error.

14a
2.

Five justices in Jesner strongly
suggested that the ATS forecloses
corporate liability.

Although Jesner did not explicitly rule out
domestic corporate ATS liability, there is no basis for
the panel majority’s conclusion that Jesner preserved
our court’s status quo. Justice Kennedy’s threejustice plurality opinion does not mince words in
arguing that “[t]he international community’s
conscious decision to limit the authority of . . .
international tribunals to natural persons counsels
against a broad holding that there is a specific,
universal, and obligatory norm of corporate liability
under currently prevailing international law.”
138 S. Ct. at 1401 (plurality op.).
Justice Alito’s view is similar:
Federal courts should decline to create federal
common law causes of action under Sosa’s
second step whenever doing so would not
materially advance the ATS’s objective of
avoiding diplomatic strife. . . .
All parties
agree that customary international law does
not require corporate liability as a general
matter. But if customary international law
does not require corporate liability, then
declining to create it under the ATS cannot
give other nations just cause for complaint
against the United States.
Id. at 1410 (Alito, J., concurring) (citation omitted).
Corporate liability would “not materially advance
the ATS’s objective of avoiding diplomatic strife.” Id.

15a
Finally, Justice Gorsuch would have gone even
further than the plurality and held that the courts
lack authority to create any new causes of action
under the ATS other than those recognized by the
First Congress, which would not include the claims
that Plaintiffs here raise. Id. at 1412–13 (Gorsuch,
J., concurring).
In short, five justices signaled in Jesner that they
would hold that corporations are not subject to the
ATS. We should have revisited en banc the panel
majority’s holding that Jesner had no impact at all
on this issue.2
B.

No specific, universal, and obligatory
norm of international law extends
liability to corporate defendants, and
such claims are not cognizable under
the ATS.

Because no sufficiently established norm of
international law subjects corporations to liability, an
ATS claim cannot lie against corporations.

2

The panel majority’s application of Nestle I in this case was
based on Miller v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003)
(en banc), in which we held that “where the reasoning or theory
of our prior circuit authority is clearly irreconcilable with the
reasoning or theory of intervening higher authority, a threejudge panel should consider itself bound by the later and
controlling authority.”
Id.
Because Jesner is “clearly
irreconcilable” with Nestle I, Miller provides an additional
compelling reason for us to have taken this case up en banc to
conduct the analysis required by “higher authority.”

16a
1.

International law, not federal
common law, supplies the rule of
decision on corporate liability.

As I explained above, the Court in Sosa directed
lower courts to consider “whether international law
extends the scope of liability for a violation of a given
norm to the perpetrator being sued, if the defendant is
a private actor such as a corporation or individual.”
542 U.S. at 732 n.20; see also id. at 760 (Breyer, J.,
concurring) (restating the Court’s holding that “[t]he
norm must extend liability to the type of
perpetrator . . . the plaintiff seeks to sue”). Properly
understood, Sosa forecloses any argument that the
ATS provides authority for the creation of new causes
of action under federal common law.3 See Kiobel v.
Royal Dutch Petroleum Co. (Kiobel I), 621 F.3d 111,
127 (2d Cir. 2010) (Sosa “requires that we look to
international law to determine our jurisdiction over
ATS claims against a particular class of defendant,
such as corporations”).
Some courts have concluded that corporate liability
is permitted by the ATS, reasoning that while
customary international law supplies the cause of
action (in this case, a claim for redress of child
slavery), “the technical accoutrements to the ATS
cause of action, such as corporate liability[,] . . . are to

3

This view is consistent with Judge Edwards’s concurrence in
Tel-Oren v. Libyan Arab Republic, 726 F.2d 774 (D.C. Cir.
1984), which looked to the lack of “consensus on non-official
torture” to conclude that the ATS did not “cover torture by nonstate actors.” Id. at 795 (Edwards, J., concurring).

17a
be drawn from federal common law[.]” Doe v. Exxon
Mobil Corp., 654 F.3d 11, 51 (D.C. Cir. 2011), vacated,
527 F. App’x 7 (D.C. Cir. 2013); see also Flomo v.
Firestone Nat. Rubber Co., 643 F.3d 1013, 1020 (7th
Cir. 2011) (“International law imposes substantive
obligations and the individual nations decide how to
enforce them.”).
These views are flatly inconsistent with Sosa,
which requires that courts evaluate the potential
liability under international law for certain classes of
defendants. And following Jesner, these views are
even less tenable.
Indeed, Justice Sotomayor’s
Jesner dissent specifically invokes the distinction
between norms of “substantive conduct,” which she
argues are determined by international law, and
“rules of how to enforce international-law norms,”
which she argues are left to the individual states.
Jesner, 138 S. Ct. at 1420 (Sotomayor, J., dissenting).
That contention, however, only garnered the support
of four justices, and was characterized by the
plurality as “far from obvious,” id. at 1402 (plurality
op.). In any event, Sosa defines our inquiry and
requires us to determine questions of corporate
liability by reference to international law.
2.

An ATS claim does not lie against
corporations because there is no
universally
accepted
international
law
norm
of
corporate liability.

Applying Sosa’s step one to the question of
corporate liability under the ATS, I agree with

18a
Justice Kennedy’s plurality opinion in Jesner, Judge
Cabranes’s opinion for the Second Circuit in Kiobel I,
and then-Judge Kavanaugh’s dissent in Exxon Mobil,
that allowing an ATS claim against a corporation
does not “rest on a norm of international character
accepted by the civilized world and defined with a
specificity comparable to the features of the 18thcentury paradigms” on which the ATS was based.
Sosa, 542 U.S. at 725; see also Jesner, 138 S. Ct. at
1401 (plurality op.) (“The international community’s
conscious decision to limit the authority of these
international tribunals to natural persons counsels
against a broad holding that there is a specific,
universal, and obligatory norm of corporate liability
under currently prevailing international law.”);
Kiobel I, 621 F.3d at 141 (“[T]here is nothing to
demonstrate that corporate liability has yet been
recognized as a norm of the customary international
law of human rights.”); Exxon Mobil, 654 F.3d at 81
(Kavanaugh, J., dissenting) (“[C]laims under the ATS
are defined and limited by customary international
law, and customary international law does not
extend liability to corporations.”).
As Judge Leval’s concurrence in Kiobel I recognized,
“international law, of its own force, imposes no
liabilities on corporations or other private juridical
entities.”
Kiobel I, 621 F.3d at 186 (Leval, J.,
concurring). That conclusion is dispositive—in the
absence of a clearly defined, universal norm of
corporate liability under customary international law,
the remaining domestic corporate defendants are
entitled to dismissal.

19a
I note finally that only a few courts have argued
that there is, in fact, a specific, universal, and
obligatory norm of corporate liability under
international law (Flomo, 643 F.3d at 1016, for
example, makes this argument). This view is the
minority and seems to be contrary to fact. Even
Justice Sotomayor’s Jesner dissent does not argue
that such a norm exists. Rather, Justice Sotomayor
argues, echoing Judge Leval and others, that there is
no international-law reason to distinguish between
corporations and natural persons, and thus federal
common law (which recognizes corporate liability)
should supply the rule of decision. See Jesner,
138 S. Ct. at 1425 (Sotomayor, J., dissenting).
Looking to federal common law to fill the gaps where
international law is silent is problematic for several
reasons. First, it ignores Sosa’s requirement that we
look to a given defendant’s potential liability under
international law to determine whether an ATS claim
lies. 542 U.S. at 732 n.20. If there is no international
law liability, the ATS does not permit courts to impute
liability from another body of substantive law. Second,
it simply ignores “the fact that no international
tribunal has ever been accorded jurisdiction over
corporations.” Kiobel I, 621 F.3d at 145. Third, it is a
completely backwards application of Sosa step one.
Rather than asking whether the norm of corporate
liability “is sufficiently definite” under international
law, Sosa, 542 U.S. at 732, it purports to derive a new
type of ATS liability from the absence of an
international law norm distinguishing between
individual and corporate actors. See Jesner, 138 S. Ct.
at 1425 (Sotomayor, J., dissenting) (quoting Judge

20a
Leval’s concurrence in Kiobel I, 621 F.3d at 175, for the
proposition that “international law . . . takes no
position on the question” whether international law
distinguishes between a corporation and natural
person). But the ATS does not give federal courts the
“power to mold substantive law.” Sosa, 542 U.S. at
713. In the absence of a clear norm of corporate
liability under international law, we cannot extend
the ATS to reach corporate actors. See Kiobel I, 621
F.3d at 120–21 (“[T]he responsibility of establishing a
norm of customary international law lies with those
wishing to invoke it, and in the absence of sources of
international law endorsing (or refuting) a norm, the
norm simply cannot be applied in a suit grounded on
customary international law under the ATS.”).
C.

The caution urged by the Court in
ATS cases counsels heavily against
permitting an ATS claim against
corporations.

The inquiry should end at Sosa step one. But were
we to move to Sosa step two, dismissal would still be
appropriate because only Congress, not the courts,
may extend the ATS’s reach to corporate actors.
Sosa step two, as the Supreme Court applied it in
Jesner, compels a holding that corporate liability
simply does not lie under the ATS absent express
congressional approval.
The appropriate inquiry here is “whether allowing
[a] case to proceed under the ATS is a proper exercise
of judicial discretion, or instead whether caution
requires the political branches to grant specific

21a
authority before corporate liability can be imposed.”
Jesner, 138 S. Ct. at 1399 (plurality op.). Since Sosa,
the Court has consistently urged lower federal courts
to exercise “great caution” before extending the ATS to
cover new forms of liability not contemplated by the
First Congress. Sosa, 542 U.S. at 728. In Kiobel II,
for example, the Court observed that foreign policy
concerns “are implicated in any case arising under the
ATS,” and reiterated the need for deference to the
political branches before fashioning new ATS causes
of action. 569 U.S. at 117.
In Jesner, the Court relied on this judicial reluctance
in declining to extend ATS liability to foreign
corporations.
Highlighting foreign policy and
separation-of-powers concerns, the Jesner majority
reiterated that the responsibility for creating new
causes of action—particularly in areas that touch
foreign policy (as any ATS case does)—lies with
Congress and the President. 138 S. Ct. at 1402–03,
1407.
The panel majority has failed to exercise the caution
that the Supreme Court demands in ATS cases.
Following the Court’s lead in Jesner, we should have
held that corporate ATS liability fails Sosa step two for
two reasons: the Congressional enactment of the
Torture Victim Protection Act of 1991 (“TVPA”), and
the Court’s Bivens jurisprudence.
First, we have some “congressional guidance in
exercising jurisdiction.” Sosa, 542 U.S. at 731. The
TVPA—the only ATS cause of action created by
Congress, see 28 U.S.C. § 1350 note—expressly
limits liability to “individuals.”
As the Jesner

22a
plurality explained, the fact that corporations cannot
be sued under the TVPA “reflects Congress’
considered judgment of the proper structure for a
right of action under the ATS. Absent a compelling
justification, courts should not deviate from that
model.” 138 S. Ct. at 1403 (plurality op.). The TVPA
is “all but dispositive” of the issue of corporate
liability under the ATS. Id. at 1404 (plurality op.).
On the sole occasion it has implemented the ATS for
a specific class of conduct, Congress specifically
chose to exempt corporations from liability.
Second, insofar as the Court has expressed
considerable skepticism of expanding the breadth of
the ATS in the absence of Congressional guidance, its
Bivens jurisprudence (which “provides . . . the closest
analogy” to the ATS, Sosa, 542 U.S. at 743 (Scalia, J.,
concurring in part)) is highly instructive. In Jesner,
the Court cited a Bivens case, Correctional Services
Corp. v. Malesko, 534 U.S. 61, 74 (2001), for the
proposition that “[a]llowing corporate liability would
have been a ‘marked extension’ of Bivens that was
unnecessary to advance its purpose.” 138 S. Ct. at
1403. As the Jesner Court then explained, “[w]hether
corporate defendants should be subject to suit was ‘a
question for Congress, not us, to decide.’”
Id.
(quoting Malesko, 534 U.S. at 72). The Court then
immediately observed that “[n]either the language of
the ATS nor the precedents interpreting it support an
exception to these general principals in this context.”
Id. at 1403.
Jesner’s discussion of Bivens and Malesko should
dictate the outcome here. In Malesko, the Court

23a
reasoned that corporations are immune from Bivens
actions because, “if a corporate defendant is available
for suit, claimants will focus their collection efforts on
it, and not the individual directly responsible for the
alleged injury.” 534 U.S. at 71. “[T]he deterrent
effects of the Bivens remedy would be lost.” Id. at 69
(quoting FDIC v. Meyer, 510 U.S. 471, 485 (1994)).
The same principle applies with equal force here.
International criminal law is chiefly concerned with
punishing those natural persons directly responsible
for affronts to the law of nations. See The Nürnberg
(Nuremberg) Trial (United States v. Goering),
6 F.R.D. 69, 110 (Int’l Military Trib. 1946) (“Crimes
against international law are committed by men, not
by abstract entities, and only by punishing
individuals who commit such crimes can the
provisions of international law be enforced.”). The
complaint here amply demonstrates that if given the
choice between pursuing a corporate defendant or
the
individuals
responsible
for
violating
international law, plaintiffs will choose the former.
But, in the end, whether sound policy would counsel
for or against extending ATS liability to
corporations, the Supreme Court has clearly stated
that such a policy determination is for Congress and
not the courts. Under Malesko and Jesner, ATS
liability does not attach to corporate defendants, and
we should have corrected the panel majority’s
opposite conclusion en banc.

24a
II.

Plaintiffs’ Claims
Extraterritorial.

Are

Impermissibly

In Kiobel II, the Court held “the presumption
against extraterritoriality applies to claims under the
ATS.” 569 U.S. at 124. To sustain an ATS action,
therefore, the allegations underlying the plaintiff’s
claim must “touch and concern the territory of the
United States, [and] they must do so with sufficient
force to displace the presumption against
extraterritorial application.” Id. at 124–25. When we
seek to apply the ATS to aiding-and-abetting claims,
the locus of the actual law-of-nations violation
becomes even more significant. See Doe v. Drummond
Co., 782 F.3d 576, 592–93 (11th Cir. 2015) (Where, as
here, “the [ATS] claim is for secondary responsibility,
we must . . . consider the location of any underlying
conduct, such as where the actual injuries were
inflicted.”).
To determine whether a given “case involves a
domestic application of the statute . . . [courts] look[]
to the statute’s ‘focus.’” RJR Nabisco v. European
Cmty., 136 S. Ct. 2090, 2101 (2016). “[I]f the conduct
relevant to the focus occurred in a foreign country,
then
the
case
involves
an
impermissible
extraterritorial application regardless of any other
conduct that occurred in U.S. territory.” Id. Put
another way, if “all the relevant conduct occurred
abroad, that is simply the end of the matter.” Mujica
v. AirScan Inc., 771 F.3d 580, 594 (9th Cir. 2014)
(quoting Balintulo v. Daimler AG, 727 F.3d 174, 190
(2d Cir. 2013)).

25a
Because all relevant conduct took place abroad, we
should have corrected the panel majority’s decision
to permit this case to proceed.
A.

Allegations
of
solely
foreign
misconduct cannot sustain an ATS
claim.

Plaintiffs allege that they were victims of child
slavery in Côte d’Ivoire.
They allege that the
perpetrators (who are not named defendants) are
slavers and cocoa farmers abroad. They do not allege
that any of the named defendants engaged in slavery
or are associated with any of the actual perpetrators
beyond their status as buyers of cocoa. “[T]he ATS’s
focus is . . . conduct that violates international law,
which the ATS ‘seeks to “regulate”‘ by giving federal
courts jurisdiction over such claims.” Adhikari v.
Kellogg Brown & Root, Inc., 845 F.3d 184, 197 (5th
Cir.), cert. denied 138 S. Ct. 134 (2017) (quoting
Morrison v. Nat’l Australia Bank, Ltd., 561 U.S. 247,
267 (2010)); see also Kiobel II, 569 U.S. at 127 (Alito,
J., concurring) (“[A] putative ATS cause of action will
fall within the scope of the presumption against
extraterritoriality—and will therefore be barred—
unless the domestic conduct is sufficient to violate an
international law norm that satisfies Sosa’s
requirements of definiteness and acceptance among
civilized nations.”). Here, that conduct—Plaintiffs’
enslavement on cocoa plantations—took place abroad,
and thus their ATS claims must be dismissed.
The majority opinion identifies three examples of
conduct that, in its view, are sufficiently forceful to
displace the presumption against extraterritoriality:

26a
allegations that 1) “[D]efendants funded child slavery
practices in the Ivory Coast” in the form of “personal
spending money to maintain the farmers’ and/or the
cooperatives’ loyalty as an exclusive supplier,” which
the panel majority characterizes as “kickbacks”;
2) Defendants’ employees “inspect operations in the
Ivory Coast”; and 3) Defendants made “financing
decisions” in the United States. Nestle II, 906 F.3d at
1126. The first two sets of allegations (provision of
spending money and inspections) relate solely to
foreign conduct. The third, which involves domestic
corporate decision-making, cannot sustain an ATS
claim, even if we assume aiding and abetting liability
under the ATS.
Even if payments to cocoa farmers could be properly
characterized as “kickbacks” (though they were never
described in the complaint as such), the payments, like
the slavery, all took place in Africa. The complaint
does not even allege that the funds originated in the
U.S., only that they were paid to “local farmers.” 4
Alleged “inspections” of cocoa farms likewise took
place in Africa. The panel majority fails to identify
any domestic conduct alleged in the complaint that is
4

As to Defendant Nestle, the complaint does not even allege
that any Nestle entity made any payments to any farmer that
used child slaves, only that Nestle “was directly involved in the
purchasing and processing of cocoa beans from Côte d’Ivoire.”
With respect to Defendant Cargill, the complaint alleges that
“19 Malian child slaves were rescued” from one of the farms
with which Cargill had an exclusive supplier relationship, but
does not allege that Cargill had any relationship with the farm
in question at a time it used slave labor, or that Cargill was
specifically aware that the farm used slaves.

27a
“connect[ed] [to] the alleged international law
violations.” Adhikari, 845 F.3d at 198. Consistent
with Kiobel II, alleged misconduct that took place
entirely abroad cannot sustain an ATS claim.
B.

Domestic corporate presence cannot
support an otherwise extraterritorial
ATS claim.

The complaint does allege some domestic activity.
Indeed, “it is a rare case . . . that lacks all contact
with the territory of the United States.” Morrison,
561 U.S. at 266. “But the presumption against
extraterritorial application would be a craven
watchdog indeed if it retreated to its kennel
whenever some domestic activity is involved in the
case.” Id. To the extent that the complaint alleges
relevant domestic conduct at all, it simply alleges
corporate presence and decision-making.
That
cannot form the basis for an ATS/aiding-andabetting claim.
To begin, no court has held that the mere fact that
a defendant is American is sufficient, on its own, to
displace the presumption against extraterritoriality.
At most, the domestic status of a corporation “may
well be . . . one factor that, in conjunction with other
factors,” could establish a sufficient connection. 5
5
The Second Circuit, though, views the citizenship of the
defendant as an “irrelevant factual distinction[]” for purposes of
the rule against extraterritoriality. Balintulo, 727 F.3d at 190;
see also Mastafa v. Chevron Corp., 770 F.3d 170, 189 (2d Cir.
2014) (“We disagree with the contention that a defendant’s U.S.
citizenship has any relevance to the jurisdictional analysis.”).

28a
Mujica, 771 F.3d at 594 (emphasis added). But, as
we explained, “the [Supreme] Court has repeatedly
applied the presumption against extraterritoriality
to bar suits” where the defendant was a U.S.
corporation. Id. (compiling cases).
The panel majority concludes that Defendants
making “financing decisions” in the United States is
conduct sufficient to displace the presumption
against extraterritoriality. But Mujica teaches us
that vague allegations of domestic “decisions
furthering the [] conspiracy” will not imbue an
otherwise entirely foreign claim with the territorial
connection that the ATS absolutely requires.
771 F.3d at 591; see also Baloco v. Drummond Co.,
767 F.3d 1229, 1236 (11th Cir. 2014) (presumption
not displaced despite allegations of domestic decisionmaking).
Our holding here also conflicts with two other
circuits that have considered the question. In Doe v.
Drummond, the Eleventh Circuit held that the making
of “funding and policy decisions in the United States”
does not displace the presumption where the unlawful
conduct itself took place in Colombia. 782 F.3d at 598;
see also Baloco, 767 F.3d at 1236 (holding that
domestic decision-making does not displace the
presumption in the absence of allegations of “an
express agreement between Defendants” and actual
perpetrators of human rights abuses, which is not
alleged here); Cardona v. Chiquita Brands Int’l, Inc.,
760 F.3d 1185, 1191 (11th Cir. 2014) (holding that
ATS claim against domestic defendant must be
dismissed because alleged acts of torture all took

29a
place abroad); see also id. at 1192 (Martin, J.,
dissenting) (faulting the majority for ordering
dismissal notwithstanding allegations that domestic
defendant “review[ed], approv[ed], and conceal[ed]”
the scheme in the United States). And in Adhikari,
the Fifth Circuit held that domestic payments from a
U.S. corporation to a foreign subcontractor that was
allegedly involved in “human trafficking” did not
displace the presumption. 845 F.3d at 197.6 Had
Plaintiffs filed in the Fifth or Eleventh Circuit, their
allegations would have been dismissed for want of
adequate allegations of domestic conduct.
The only circuit court decisions that the panel
majority identifies to support its view are both Second
Circuit cases, Mastafa v. Chevron Corp., 770 F.3d 170
(2d Cir. 2014), and Licci by Licci v. Lebanese
Canadian Bank, SAL, 834 F.3d 201 (2d Cir. 2016).
Mastafa is clearly distinguishable. There, plaintiffs
alleged “multiple domestic purchases and financing
transactions” as well as “New York-based payments
and ‘financing arrangements’ conducted exclusively
through a New York bank account”—allegations of
“specific and domestic” conduct altogether lacking
here. 770 F.3d at 191. Indeed, Mastafa supports
dismissal of the claims here, as the Second Circuit
found the plaintiffs’ allegations that “much of the
6
The fact that Adhikari involved a claim for primary, rather
than secondary, liability is immaterial. Plaintiffs there sought
to amend their complaint to add an aiding-and-abetting claim,
and the Fifth Circuit held that such an amendment would be
futile because the relevant facts alleged did not displace the
presumption. 845 F.3d at 199.

30a
decisionmaking to participate in the . . . scheme” took
place in the United States, “conclusory” and
inadequate. 770 F.3d at 190.
Licci fares no better. The plaintiffs alleged that the
defendant’s domestic conduct “violated various
terrorist financing and money laundering laws.” 834
F.3d at 215. Plaintiffs here do not allege that
Defendants made payments to Ivorian farmers to
perpetuate law-of-nations violations, but rather to
“maintain the farmers’ . . . loyalty as an exclusive
supplier.” Nestle II, 906 F.3d at 1126. By permitting
Plaintiffs’ claims to go forward based on the
allegations made here, we essentially read out the
presumption against extraterritoriality.
Perhaps recognizing that the complaint alleges only
normal business conduct in the United States, the
panel majority asserts that Defendants paid
“kickbacks” to the farmers in the form of “spending
money” (though again, those payments were made in
Africa, not the United States). Those “kickbacks,”7 in
the panel majority’s view, are far more than normal
corporate
activity:
Instead,
Defendants
are

7

I understand “kickbacks” differently than the majority. For
example, The Anti-Kickback Enforcement Act of 1986
essentially defines a kickback in the contract procurement
sphere as providing money or something else of value (to a
contractor, subcontractor, or employee of either) for the purpose
of improperly obtaining or rewarding favorable treatment. See
41 U.S.C. § 8701(2). Providing a farmer money (even extra
money) to keep supplying a product is not what I would ever
have thought of as a kickback (versus bribing the farmer’s
plantation manager to steer business, for example)

31a
“maintain[ing] ongoing relations with the farms so
that defendants could continue receiving cocoa at a
price that would not be obtainable without employing
child slave labor.” Nestle II, 906 F.3d at 1126. This
somehow pushes the needle over the line.
But the complaint itself, which never uses the word
“kickback,” is devoid of any allegation that the
provision of “spending money” was improper or illegal,
and on the facts actually alleged, Plaintiffs could not
plausibly make such an assertion. 8 The factual
allegations in the complaint show only that
Defendants sought to stabilize their supply lines and
minimize costs by entering into exclusive-dealing
arrangements.
We have recognized that such
agreements
“provide
‘well-recognized
economic
benefits.’” Aerotec Int’l, Inc. v. Honeywell Int’l, Inc., 836
F.3d 1171, 1180 n.2 (9th Cir. 2016) (quoting Omega
Envtl., Inc. v. Gilbarco, Inc., 127 F.3d 1157, 1162 (9th
Cir. 1997)). Indeed, the complaint merely alleges that
“spending money” is meant to “maintain the farmers’
and/or the cooperatives’ loyalty as exclusive suppliers.”
Because the complaint lacks an allegation that
Defendants provided anything to the farmers for an
illegal purpose, the panel majority was flatly wrong to
“infer” “kickbacks” from the facts alleged.
The complaint here alleges clear, egregious, and
terrible violations of Plaintiffs’ basic human rights.

8

Tellingly, Plaintiffs’ response to the rehearing petitions does
not defend the panel majority’s use of the “kickback” label,
except to repeat that “all reasonable inferences are made in
Plaintiffs’ favor.”

32a
But the allegations are equally clear that all the
relevant misconduct took place in Côte d’Ivoire, not the
United States. The panel majority’s conclusion to the
contrary is based on a reconstruction and/or rewriting
of the allegations in the complaint in a way that
essentially eliminates the presumption against
extraterritoriality. But, no matter how the complaint
is viewed, it still alleges horrific conduct that took
place outside the United States.9

9

The panel majority also erred in allowing Plaintiffs the
opportunity to file yet another complaint in this action, which
has been pending for almost fifteen years—it will make their
fourth overall. Rather than address the complaint’s obvious
pleading deficiencies, the panel majority asserts that “Jesner
changed the legal landscape on which plaintiffs constructed
their case,” and as a result, Plaintiffs must be allowed to
“amend their complaint to specify whether aiding and abetting
conduct that took place in the United States is attributable to
the domestic corporations in this case.” Nestle II, 906 F.3d at
1126–27.
Plaintiffs already had the opportunity to replead to allege
domestic aiding and abetting after Kiobel II. See Nestle I, 766
F.3d at 1028. Rather than doing so, Plaintiffs lumped together
foreign and domestic entities in their complaint, see Nestle II,
906 F.3d at 1126, muddying, rather than clearing up, questions
surrounding the locus of the tortious conduct alleged. Nothing
in Jesner changes the requirement that domestic conduct
sufficient
to
displace
the
presumption
against
extraterritoriality is required and Jesner is no reason to allow
yet another amendment to Plaintiffs’ complaint as the total
unallocated domestic conduct alleged here is clearly
insufficient.

33a
III. Conclusion.
The Supreme Court directs us to proceed cautiously
when interpreting the ATS. Instead, we have adopted
a broad and expansive view of the statute that largely
disregards recent Supreme Court precedent. I thus
respectfully dissent from our decision not to rehear
this case en banc.

34a
OPINION
D.W. NELSON, Circuit Judge:
OVERVIEW
Plaintiffs-Appellants (“Plaintiffs”), former child
slaves who were forced to work on cocoa farms in the
Ivory Coast, filed a class action lawsuit against
Defendants-Appellees Nestle, SA, Nestle USA, Nestle
Ivory Coast, Archer Daniels Midland Co. (“ADM”),1
Cargill Incorporated Company, and Cargill West
Africa, SA (“Defendants”). In their Second Amended
Complaint, plaintiffs alleged claims for aiding and
abetting slave labor that took place in the United
States under the Alien Tort Statute, 28 U.S.C. § 1350
(“ATS”). The district court dismissed the claims
below based on its conclusion that plaintiffs sought
an impermissible extraterritorial application of the
ATS. We reverse and remand. In light of an
intervening change in controlling law, we think it
unnecessary to consider the other issues this case
presents at this juncture.
BACKGROUND
I.

Factual Background

We discussed much of the factual background of this
case in Doe I v. Nestle USA, Inc., 766 F.3d 1013 (9th
Cir. 2014) (“Nestle I”). Child slavery on cocoa farms in
the Ivory Coast, where seventy percent of the world’s

1

Plaintiffs voluntarily dismissed ADM from this case.

35a
cocoa is produced, is a pervasive humanitarian
tragedy.
Plaintiffs are former child slaves who were
kidnapped and forced to work on cocoa farms in the
Ivory Coast for up to fourteen hours a day without
pay. While being forced to work on the cocoa farms,
plaintiffs witnessed the beating and torture of other
child slaves who attempted to escape.
Defendants are large manufacturers, purchasers,
processors, and retail sellers of cocoa beans. Several
of them are foreign corporations that are not subject
to suit under the ATS. Jesner v. Arab Bank,
138 S. Ct. 1386, 1407 (2018). The effect of Jesner in
tandem with plaintiffs’ habit of describing
defendants en masse presents a challenge we
address below. For now, we describe the case as
plaintiffs present it.
We take their plausible
allegations as true and draw all reasonable
inferences in their favor. See Nestle I, 766 F.3d at
1018.
Because of their economic leverage over the cocoa
market, defendants effectively control cocoa
production in the Ivory Coast. Defendant Nestle,
USA is headquartered in Virginia and coordinates
the major operations of its parent corporation,
Nestle, SA, selling Nestle-brand products in the
United States. Every major operational decision
regarding Nestle’s United States market is made in
or approved in the United States. Defendant Cargill,
Inc. is headquartered in Minneapolis. The business
is centralized in Minneapolis and decisions about

36a
buying and selling commodities are made at its
Minneapolis headquarters.
Defendants operate with the unilateral goal of
finding the cheapest source of cocoa in the Ivory
Coast. Not content to rely on market forces to keep
costs low, defendants have taken steps to perpetuate
a system built on child slavery to depress labor costs.
To maintain their supply of cocoa, defendants have
exclusive buyer/seller relationships with Ivory Coast
farmers, and provide those farmers with financial
support, such as advance payments and personal
spending money. 19 Malian child slaves were rescued
from a farm with whom Cargill has an exclusive
buyer/seller relationship. Defendants also provide
tools, equipment, and technical support to farmers,
including training in farming techniques and farm
maintenance. In connection with providing this
training and support, defendants visit their supplier
farms several times per year.
Defendants were well aware that child slave labor
is a pervasive problem in the Ivory Coast.
Nonetheless, defendants continued to provide
financial support and technical farming aid, even
though they knew their acts would assist farmers
who were using forced child labor, and knew their
assistance would facilitate child slavery. Indeed, the
gravamen of the complaint is that defendants
depended on—and orchestrated—a slave-based
supply chain.

37a
II.

Procedural History

Plaintiffs began this lawsuit over a decade ago, and
we had occasion to consider it once before in Nestle I.
On remand after Nestle I, defendants moved to
dismiss the operative complaint and the district court
granted the motion.
In its order, the district
concluded that the complaint seeks an impermissible
extraterritorial application of the ATS because
defendants engaged domestically only in ordinary
business conduct. The district court did not decide
whether plaintiffs stated a claim for aiding and
abetting child slavery.
Plaintiffs timely appealed.
STANDARD OF REVIEW
We review a dismissal for lack of jurisdiction de
novo. Corrie v. Caterpillar, Inc., 503 F.3d 974, 979
(9th Cir. 2007) (citing Arakaki v. Lingie, 477 F.3d
1048, 1056 (9th Cir. 2007)). “A dismissal for failure
to state a claim is reviewed de novo. All factual
allegations in the complaint are accepted as true, and
the pleadings construed in the light most favorable to
the nonmoving party.” Nestle I, 766 F.3d at 1018
(quoting Abagninin v. AMVAC Chem. Corp., 545 F.3d
733, 737 (9th Cir. 2008) (internal citations omitted)).
DISCUSSION
The legal landscape has shifted since we last
considered this case, including during the pendency
of this appeal. The Supreme Court’s decisions in
Jesner and RJR Nabisco, Inc. v. European

38a
Community,136 S. Ct. 2090 (2016), require us to
revisit parts of Nestle I.
I.

Corporate Liability Post-Jesner

In Nestle I, we held that corporations are liable for
aiding and abetting slavery after applying three
principles from our en banc decision in Sarei v. Rio
Tinto, PLC, 671 F.3d 736, 746 (9th Cir. 2011) (en
banc), vacated on other grounds by Rio Tinto PLC v.
Sarei, 133 S. Ct. 1995 (2013). Nestle I, 766 F.3d at
1022. Our court in Sarei adopted a norm-specific
analysis that determines “‘whether international law
extends the scope of liability for a violation of a given
norm to the perpetrator being sued.’” Sarei, 671 F.3d
at 760 (quoting Sosa, 542 U.S. at 732 n.20). “First,
the analysis proceeds norm-by-norm; there is no
categorical rule of corporate immunity or liability.”
Nestle I, 766 F.3d at 1022 (citing Sarei, 671 F.3d at
747–48). Under the second principle, “corporate
liability under an ATS claim does not depend on the
existence of international precedent enforcing legal
norms against corporations.” Id. (citing Sarei, 671
F.3d at 760–61). “Third, norms that are ‘universal
and absolute,’ or applicable to ‘all actors,’ can provide
the basis for an ATS claim against a corporation.” Id.
(citing Sarei, 671 F.3d at 764–65). We reaffirmed
these principles in Nestle I and held that since the
prohibition of slavery is “universal,” it is applicable to
all actors, including corporations. Id. at 1022.
As we have noted, the Supreme Court in Jesner
held that foreign corporations cannot be sued under
the ATS. Jesner, 138 S. Ct. at 1407. Jesner thus
abrogates Nestle I insofar as it applies to foreign

39a
corporations.
But Jesner did not eliminate all
corporate liability under the ATS, and we therefore
continue to follow Nestle I’s holding as applied to
domestic corporations.
See Miller v. Gammie,
335 F.3d 889, 893 (9th Cir. 2003) (en banc).
II.

Extraterritorial ATS Claim

In Kiobel v. Royal Dutch Petroleum Co. (Kiobel II),
the Supreme Court held that the ATS does not have
extraterritorial reach after applying a canon of
statutory interpretation known as the presumption
against extraterritorial application, which counsels
that “[w]hen a statute gives no clear indication of an
extraterritorial application, it has none.” 569 U.S.
108, 115 (2013) (citing Morrison v. National
Australia Bank Ltd., 561 U.S. 247, 248 (2010)). The
Court acknowledged that the canon is not directly on
point given that the ATS “does not directly regulate
conduct or afford relief.” Id. But given the foreign
policy concerns the ATS poses, the Court stated that
“the
principles
underlying
the
canon
of
interpretation similarly constrain courts considering
causes of action that may be brought under the
ATS.” Id.
The Court in Kiobel II left the door open to the
extraterritorial application of the ATS for claims
made under the statute which “touch and concern
the territory of the United States . . . with sufficient
force to displace the presumption.” Id. at 123 (citing
Morrison, 561 U.S. at 264–73). Because “all the
relevant conduct” in Kiobel II took place abroad, the
Court did not need to delve into the contours of the
touch and concern test. Id. The only guidance the

40a
Court provided about the “touch and concern” test
was that “mere corporate presence” would not suffice
to meet it. Id.
In announcing the “touch and concern” test, the
Supreme Court cited to its decision in Morrison v.
National Australia Bank Lt.
In Morrison, the
Supreme Court undertook a two-step analysis, known
as the “focus” test, to determine whether Section 10(b)
of the Securities Exchange Act of 1934 applies
extraterritorially. Morrison, 561 U.S. at 262. Under
the first analytical step, the Court asked if there is
any indication that the statute is meant to apply
extraterritorially, and concluded there is not. Id. at
265. Under the second step, the Court asked what the
“‘focus’ of congressional concern” was in passing
Section 10(b). Id. The Court found that the “focus is
not on the place where the deception originated, but
on purchases and sales of securities in the United
States. Section 10(b) [therefore] applies only to
transactions in securities listed on domestic exchanges
and domestic transactions in other securities.” Id. at
249.
In the first appeal of this case, we reasoned that
“Morrison may be informative precedent for
discerning the content of the touch and concern
standard, but the opinion in Kiobel II did not
incorporate Morrison’s focus test. Kiobel II did not
explicitly adopt Morrison’s focus test, and chose to
use the phrase ‘touch and concern’ rather than the
term ‘focus’ when articulating the legal standard it
did adopt.” Nestle I, 766 F.3d at 1028.

41a
Defendants argue that the Supreme Court’s recent
decision in RJR Nabisco requires us to apply the
focus test to claims under the ATS. In RJR Nabisco,
the Court applied the Morrison focus test to the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”) and reiterated that Morrison reflects a twostep inquiry regarding extraterritoriality. Id. at 2103.
The Court further stated that “Morrison and Kiobel
[also] reflect a two-step framework for analyzing
extraterritoriality issues.” Id. at 2101.
Because RJR Nabisco has indicated that the twostep framework is required in the context of ATS
claims, we apply it here. See Miller v. Gammie,
335 F.3d at 893. First, we determine “whether the
[ATS] gives a clear, affirmative indication that it
applies extraterritorially.” RJR Nabisco, 136 S. Ct.
at 2101. The Court in Kiobel II already answered
that the “presumption against extraterritoriality
applies to claims under the ATS, and that nothing in
the statute rebuts that presumption.” Kiobel II,
569 U.S. at 185.
Because the ATS is not extraterritorial, then at the
second step, we must ask whether this case involves
“a domestic application of the statute, by looking to
the statute’s ‘focus.’” RJR Nabisco, 136 S. Ct. at 2101.
Defendants insist that any acts of assistance that took
place in the United States are irrelevant because the
extraterritoriality analysis should focus on the
location where the principal offense took place or the
location the injury occurred, rather than the location
where the alleged aiding and abetting took place. We
disagree.

42a
The focus of the ATS is not limited to principal
offenses. In Mastafa v. Chevron Corp., the Second
Circuit held that “the ‘focus’ of the ATS is on . . .
conduct of the defendant which is alleged by plaintiff
to be either a direct violation of the law of nations
or . . . conduct that constitutes aiding and abetting
another’s violation of the law of nations.” 770 F.3d at
185 (emphasis added); see also Adhikari v. Kellogg
Brown & Root, Inc., 845 F.3d 184, 199 (5th Cir. 2017)
(stating that aiding and abetting conduct comes
within the focus of the ATS). We also hold that aiding
and abetting comes within the ATS’s focus on
“tort[s] . . . committed in violation of the law of
nations.” 28 U.S.C. § 1350.
As part of the step two analysis, we then determine
“whether there is any domestic conduct relevant to
plaintiffs’ claims under the ATS.” Adhikari, 845
F.3d at 195. Under RJR Nabisco, “if the conduct
relevant to the statute’s focus occurred in the United
States, then the case involves a permissible domestic
application even if other conduct occurred abroad.”
RJR Nabisco, 136 S. Ct. at 2101 (emphasis added).
In Mastafa, the Second Circuit held that the
following constituted “specific, domestic conduct”:
“Chevron’s [Iraqi] oil purchases, financing of [Iraqi] oil
purchases, and delivery of oil to another U.S. company,
all within the United States, as well as the use of a
New York escrow account and New York-based
‘financing arrangements’ to systematically enable
illicit payments to the Saddam Hussein regime that
allegedly facilitated that regime’s violations of the
law of nations.” Mastafa, 770 F.3d at 195.

43a
In Licci by Licci v. Lebanese Canadian Bank, SAL,
the Second Circuit again held that the Lebanese
Canadian Bank’s (“LCB”) “provision of wire transfers
between Hezbollah accounts” through a United States
bank constituted domestic conduct which rebutted the
presumption against extraterritoriality. 834 F.3d 201,
214–15, 219 (2d Cir. 2016).
There, LCB made
“numerous New York-based payments and ‘financing
arrangements’ conducted exclusively through a New
York bank account.” Id. at 217 (citing Mastafa, 700
F.3d at 191).
Like in Mastafa and Licci, plaintiffs have alleged
that defendants funded child slavery practices in the
Ivory Coast.
Specifically, plaintiffs allege that
defendants provided “personal spending money to
maintain the farmers’ and/or the cooperatives’ loyalty
as an exclusive supplier.” Because we are required to
“draw all reasonable inferences in favor” of plaintiffs,
Mujica v. Airscan, Inc., 771 F.3d 580, 589 (9th Cir.
2014), we infer that the personal spending money was
outside the ordinary business contract and given with
the purpose to maintain ongoing relations with the
farms so that defendants could continue receiving
cocoa at a price that would not be obtainable without
employing child slave labor. Contrary to the district
court’s reasoning, providing personal spending money
to maintain relationship above the contract price for
cocoa is not ordinary business conduct, and is more
akin to “kickbacks.” Mastafa, 770 F.3d at 175.
Defendants also had employees from their United
States headquarters regularly inspect operations in
the Ivory Coast and report back to the United States
offices, where these financing decisions, or “financing

44a
arrangements,” originated. Licci by Licci, 834 F.3d at
217 (citing Mastafa, 770 F.3d at 191). In sum, the
allegations paint a picture of overseas slave labor
that defendants perpetuated from headquarters in
the United States. “This particular combination of
conduct in the United States . . . is both specific and
domestic.” Id. at 191. We thus hold that foregoing
narrow set of domestic conduct is relevant to the
ATS’s focus.
III. Aiding And Abetting Claim
Defendants invite us to rule in the alternative that
plaintiffs have not sufficiently alleged the elements
of aiding and abetting. We think it unnecessary to
reach that issue at this time. As we have explained,
Jesner changed the legal landscape on which
plaintiffs constructed their case. The operative
complaint names several foreign corporations as
defendants, and plaintiffs concede those defendants
must be dismissed on remand.
The operative
complaint also discusses defendants as if they are a
single bloc—a problematic approach that plaintiffs
would do well to avoid. In light of Jesner, it is not
possible on the current record to connect culpable
conduct to defendants that may be sued under the
ATS.
As we observed in Nestle I, “[i]t is common practice
to allow plaintiffs to amend their pleadings to
accommodate changes in the law, unless it is clear
that amendment would be futile.” See Nestle I, 766
F.3d at 1028 (citations omitted). We are mindful that
this case has lingered for over a decade, and that
delay does not serve the interests of any party. But

45a
we cannot conclude that amendment would be futile,
so we remand with instructions that plaintiffs be
given an opportunity to amend their complaint. On
remand, plaintiffs must remove those defendants who
are no longer amenable to suit under the ATS, and
specify which potentially liable party is responsible
for what culpable conduct.
IV. Plaintiffs Have Standing to Bring Their
Claims
Defendants argue that plaintiffs lack Article III
standing to bring their claims. To have standing,
plaintiffs must allege “[(1)] a concrete and
particularized injury [(2)] that is fairly traceable to the
challenged conduct, [(3)] and is likely to be redressed
by a favorable judicial decision.” Consumer Fin. Prot.
Bureau v. Gordon, 819 F.3d 1179, 1187 (9th Cir. 2016),
cert. denied, (quoting Hollingsworth v. Perry, 570 U.S.
693, 704 (2013)).
Plaintiffs easily satisfy the first and third
requirements.
Defendants do not dispute that
plaintiffs suffered concrete injury by being abused and
held as child slaves. In addition, plaintiffs’ injuries
are redressable because when “one private party is
injured by another, the injury can be redressed in at
least two ways: by awarding compensatory damages
or by imposing a sanction on the wrongdoer that will
minimize the risk that the harm-causing conduct will
be repeated.” Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 127 (1998).
Plaintiffs also satisfy the traceability requirement as
to Cargill because they raise sufficiently specific

46a
allegations regarding Cargill’s involvement in farms
that rely on child slavery. Baloco ex rel. Tapia v.
Drummond Co., 640 F.3d 1338, 1343 (11th Cir. 2011);
Bennett v. Spear, 520 U.S. 154, 169 (1997) (Article III
traceability requirement “does not exclude injury
produced by determinative or coercive effect upon the
action of someone else.”).
Plaintiffs’ allegations
against Nestle are far less clear, though part of the
difficulty is plaintiffs’ reliance on collective allegations
against all or at least multiple defendants.
Notwithstanding this deficiency, the allegations are
sufficient to at least allow plaintiffs a final
opportunity to replead. On remand, plaintiffs must
eliminate the allegations against foreign defendants
and specifically identify the culpable conduct
attributable to individual domestic defendants.
CONCLUSION
For the reasons set forth above, we REVERSE the
district court and REMAND to allow plaintiffs to
amend their complaint to specify whether aiding and
abetting conduct that took place in the United States
is attributable to the domestic corporations in this
case.
_____________

SHEA, District Judge:
I concur in the result.

47a
APPENDIX B
_____________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________
JOHN DOE, I; JOHN DOE, II; JOHN DOE, III;
JOHN DOE IV; JOHN DOE V; AND JOHN DOE VI,
each individually and on behalf of
proposed class members,
Plaintiffs-Appellants.
v.
NESTLE, S.A.; NESTLE USA, INC.; NESTLE IVORY
COAST; CARGILL INCORPORATED COMPANY;
CARGILL COCOA; CARGILL WEST AFRICA, S.A.;
ARCHER DANIELS MIDLAND COMPANY,
Defendants-Appellees.
_____________
No. 17-55435
D.C. No. 2:05-cv-05133-SVW-MRW
_____________
OPINION
_____________
Appeal from the United States District Court
for the Central District of California
STEPHEN V. WILSON, District Judge, Presiding

48a
Argued and Submitted June 7, 2018
Pasadena, California
Filed October 23, 2018
Before: DOROTHY W. NELSON and MORGAN CHRISTEN,
Circuit Judges, and EDWARD F. SHEA,*
District Judge.
Opinion by Judge D.W. NELSON;
Concurrence by Judge SHEA
_____________
SUMMARY**
_____________
Alien Tort Statute
The panel reversed the district court’s dismissal of
claims alleging aiding and abetting slave labor that
took place in the United States under the Alien Tort
Statute (ATS).
The plaintiffs, former child slaves who were forced
to work on cocoa farms in the Ivory Coast, brought
the action against large manufacturers, purchasers,
processors, and retail sellers of cocoa beans. The
district court concluded that the complaint seeks an

*
The Honorable Edward F. Shea, United States District
Judge for the Eastern District of Washington, sitting by
designation.
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

49a
impermissible extraterritorial application of the
ATS.
Rejecting the defendants’ argument that the focus
of the ATS is limited to principal offenses, the panel
held that aiding and abetting comes within the
ATS’s focus on torts committed in violation of the
law of nations.
The panel also held that a narrow set of specific
domestic conduct alleged by the plaintiffs is relevant
to the ATS’s focus – namely, that the defendants
provided personal spending money outside the
ordinary business contract with the purpose to
maintain ongoing relations with the farms so that
the defendants could continue receiving cocoa at a
price that would be not be obtainable without child
slave labor; and that the defendants had employees
from their United States headquarters regularly
inspect operations in the Ivory Coast and report back
to the United States offices, where these financing
decisions or arrangements originated.
The panel deemed it unnecessary at this time to
reach the issue of whether the plaintiffs have
sufficiently alleged the elements of aiding and
abetting. In light of Jesner v. Arab Bank, 138 S. Ct.
1386 (2018), which changed the legal landscape on
which the plaintiffs constructed their case, the panel
remanded to allow the plaintiffs to amend their
complaint to specify whether aiding and abetting
conduct that took place in the United States is
attributable to the domestic corporations in this
case.

50a
District Judge Shea concurred in the result.
COUNSEL
Paul L. Hoffman (argued), John Washington, and
Catherine Sweetser, Schonbrun Seplow Harris &
Hoffman LLP, Los Angeles, California; Terrence P.
Collingsworth,
International
Human
Rights
Advocates, Washington, D.C.; for PlaintiffsAppellants.
Theodore J. Boutrous, Jr. (argued), Abbey Hudson,
Matthew A. Hoffman, and Perlette Michèle Jura,
Gibson Dunn & Crutcher LLP, Los Angeles,
California; Christopher B. Leach and Theodore B.
Olson, Gibson Dunn & Crutcher LLP, Washington,
D.C.; Colleen Sinzdak, David M. Foster, Craig A.
Hoover, and Neal Kumar Katyal, Hogan Lovells US
LLP, Washington, D.C.; for Defendant-Appellee
Nestlé USA, Inc.
Andrew John Pincus (argued) and Kevin S. Ranlett,
Mayer Brown LLP, Washington, D.C.; Lee H. Rubin,
Mayer Brown LLP, Mayer Brown LLP, Palo Alto,
California;
for
Defendant-Appellee
Cargill
Incorporated.
Marc B. Robertson and Richard A. Stamp,
Washington Legal Foundation, Washington, D.C., for
Amicus Curiae Washington Legal Foundation.
_____________

51a
OPINION
D.W. NELSON, Circuit Judge:
OVERVIEW
Plaintiffs-Appellants (“Plaintiffs”), former child
slaves who were forced to work on cocoa farms in the
Ivory Coast, filed a class action lawsuit against
Defendants-Appellees Nestle, SA, Nestle USA,
Nestle Ivory Coast, Archer Daniels Midland Co.
(“ADM”),1 Cargill Incorporated Company, and Cargill
West Africa, SA (“Defendants”). In their Second
Amended Complaint, plaintiffs alleged claims for
aiding and abetting slave labor that took place in the
United States under the Alien Tort Statute,
28 U.S.C. § 1350 (“ATS”).
The district court
dismissed the claims below based on its conclusion
that
plaintiffs
sought
an
impermissible
extraterritorial application of the ATS. We reverse
and remand. In light of an intervening change in
controlling law, we think it unnecessary to consider
the other issues this case presents at this juncture.
BACKGROUND
I.

Factual Background

We discussed much of the factual background of
this case in Doe I v. Nestle USA, Inc., 766 F.3d 1013
(9th Cir. 2014) (“Nestle I”). Child slavery on cocoa
farms in the Ivory Coast, where seventy percent of
the world’s cocoa is produced, is a pervasive
humanitarian tragedy.
1

Plaintiffs voluntarily dismissed ADM from this case.

52a
Plaintiffs are former child slaves who were
kidnapped and forced to work on cocoa farms in the
Ivory Coast for up to fourteen hours a day without
pay. While being forced to work on the cocoa farms,
plaintiffs witnessed the beating and torture of other
child slaves who attempted to escape.
Defendants are large manufacturers, purchasers,
processors, and retail sellers of cocoa beans. Several
of them are foreign corporations that are not subject
to suit under the ATS. Jesner v. Arab Bank,
138 S. Ct. 1386, 1407 (2018). The effect of Jesner in
tandem with plaintiffs’ habit of describing
defendants en masse presents a challenge we
address below. For now, we describe the case as
plaintiffs present it.
We take their plausible
allegations as true and draw all reasonable
inferences in their favor. See Nestle I, 766 F.3d at
1018.
Because of their economic leverage over the cocoa
market, defendants effectively control cocoa
production in the Ivory Coast. Defendant Nestle,
USA is headquartered in Virginia and coordinates
the major operations of its parent corporation,
Nestle, SA, selling Nestle-brand products in the
United States. Every major operational decision
regarding Nestle’s United States market is made in
or approved in the United States. Defendant Cargill,
Inc. is headquartered in Minneapolis. The business
is centralized in Minneapolis and decisions about
buying and selling commodities are made at its
Minneapolis headquarters.

53a
Defendants operate with the unilateral goal of
finding the cheapest source of cocoa in the Ivory
Coast. Not content to rely on market forces to keep
costs low, defendants have taken steps to perpetuate
a system built on child slavery to depress labor costs.
To maintain their supply of cocoa, defendants have
exclusive buyer/seller relationships with Ivory Coast
farmers, and provide those farmers with financial
support, such as advance payments and personal
spending money.
19 Malian child slaves were
rescued from a farm with whom Cargill has an
exclusive buyer/seller relationship. Defendants also
provide tools, equipment, and technical support to
farmers, including training in farming techniques
and farm maintenance. In connection with providing
this training and support, defendants visit their
supplier farms several times per year.
Defendants were well aware that child slave labor
is a pervasive problem in the Ivory Coast.
Nonetheless, defendants continued to provide
financial support and technical farming aid, even
though they knew their acts would assist farmers
who were using forced child labor, and knew their
assistance would facilitate child slavery. Indeed, the
gravamen of the complaint is that defendants
depended on—and orchestrated—a slave-based
supply chain.
II.

Procedural History

Plaintiffs began this lawsuit over a decade ago, and
we had occasion to consider it once before in Nestle I.
On remand after Nestle I, defendants moved to
dismiss the operative complaint and the district

54a
court granted the motion. In its order, the district
concluded that the complaint seeks an impermissible
extraterritorial application of the ATS because
defendants engaged domestically only in ordinary
business conduct. The district court did not decide
whether plaintiffs stated a claim for aiding and
abetting child slavery.
Plaintiffs timely appealed.
STANDARD OF REVIEW
We review a dismissal for lack of jurisdiction de
novo. Corrie v. Caterpillar, Inc., 503 F.3d 974, 979
(9th Cir. 2007) (citing Arakaki v. Lingie, 477 F.3d
1048, 1056 (9th Cir. 2007)). “A dismissal for failure
to state a claim is reviewed de novo. All factual
allegations in the complaint are accepted as true,
and the pleadings construed in the light most
favorable to the nonmoving party.” Nestle I, 766
F.3d at 1018 (quoting Abagninin v. AMVAC Chem.
Corp., 545 F.3d 733, 737 (9th Cir. 2008) (internal
citations omitted)).
DISCUSSION
The legal landscape has shifted since we last
considered this case, including during the pendency
of this appeal. The Supreme Court’s decisions in
Jesner and RJR Nabisco, Inc. v. European
Community,136 S. Ct. 2090 (2016), require us to
revisit parts of Nestle I.

55a
I.

Corporate Liability Post-Jesner

In Nestle I, we held that corporations are liable for
aiding and abetting slavery after applying three
principles from our en banc decision in Sarei v. Rio
Tinto, PLC, 671 F.3d 736, 746 (9th Cir. 2011) (en
banc), vacated on other grounds by Rio Tinto PLC v.
Sarei, 133 S. Ct. 1995 (2013). Nestle I, 766 F.3d at
1022. Our court in Sarei adopted a norm-specific
analysis that determines “‘whether international law
extends the scope of liability for a violation of a given
norm to the perpetrator being sued.’” Sarei, 671 F.3d
at 760 (quoting Sosa, 542 U.S. at 732 n.20). “First,
the analysis proceeds norm-by-norm; there is no
categorical rule of corporate immunity or liability.”
Nestle I, 766 F.3d at 1022 (citing Sarei, 671 F.3d at
747–48). Under the second principle, “corporate
liability under an ATS claim does not depend on the
existence of international precedent enforcing legal
norms against corporations.” Id. (citing Sarei, 671
F.3d at 760–61). “Third, norms that are ‘universal
and absolute,’ or applicable to ‘all actors,’ can provide
the basis for an ATS claim against a corporation.”
Id. (citing Sarei, 671 F.3d at 764–65). We reaffirmed
these principles in Nestle I and held that since the
prohibition of slavery is “universal,” it is applicable
to all actors, including corporations. Id. at 1022.
As we have noted, the Supreme Court in Jesner
held that foreign corporations cannot be sued under
the ATS. Jesner, 138 S. Ct. at 1407. Jesner thus
abrogates Nestle I insofar as it applies to foreign
corporations.
But Jesner did not eliminate all
corporate liability under the ATS, and we therefore

56a
continue to follow Nestle I’s holding as applied to
domestic corporations.
See Miller v. Gammie,
335 F.3d 889, 893 (9th Cir. 2003) (en banc).
II.

Extraterritorial ATS Claim

In Kiobel v. Royal Dutch Petroleum Co. (Kiobel II),
the Supreme Court held that the ATS does not have
extraterritorial reach after applying a canon of
statutory interpretation known as the presumption
against extraterritorial application, which counsels
that “[w]hen a statute gives no clear indication of an
extraterritorial application, it has none.” 569 U.S.
108, 115 (2013) (citing Morrison v. National
Australia Bank Ltd., 561 U.S. 247, 248 (2010)). The
Court acknowledged that the canon is not directly on
point given that the ATS “does not directly regulate
conduct or afford relief.” Id. But given the foreign
policy concerns the ATS poses, the Court stated that
“the
principles
underlying
the
canon
of
interpretation similarly constrain courts considering
causes of action that may be brought under the
ATS.” Id.
The Court in Kiobel II left the door open to the
extraterritorial application of the ATS for claims
made under the statute which “touch and concern
the territory of the United States . . . with sufficient
force to displace the presumption.” Id. at 123 (citing
Morrison, 561 U.S. at 264–73). Because “all the
relevant conduct” in Kiobel II took place abroad, the
Court did not need to delve into the contours of the
touch and concern test. Id. The only guidance the
Court provided about the “touch and concern” test

57a
was that “mere corporate presence” would not suffice
to meet it. Id.
In announcing the “touch and concern” test, the
Supreme Court cited to its decision in Morrison v.
National Australia Bank Lt.
In Morrison, the
Supreme Court undertook a two-step analysis,
known as the “focus” test, to determine whether
Section 10(b) of the Securities Exchange Act of 1934
applies extraterritorially. Morrison, 561 U.S. at 262.
Under the first analytical step, the Court asked if
there is any indication that the statute is meant to
apply extraterritorially, and concluded there is not.
Id. at 265. Under the second step, the Court asked
what the “‘focus’ of congressional concern” was in
passing Section 10(b). Id. The Court found that the
“focus is not on the place where the deception
originated, but on purchases and sales of securities
in the United States. Section 10(b) [therefore]
applies only to transactions in securities listed on
domestic exchanges and domestic transactions in
other securities.” Id. at 249.
In the first appeal of this case, we reasoned that
“Morrison may be informative precedent for
discerning the content of the touch and concern
standard, but the opinion in Kiobel II did not
incorporate Morrison’s focus test. Kiobel II did not
explicitly adopt Morrison’s focus test, and chose to
use the phrase ‘touch and concern’ rather than the
term ‘focus’ when articulating the legal standard it
did adopt.” Nestle I, 766 F.3d at 1028.
Defendants argue that the Supreme Court’s recent
decision in RJR Nabisco requires us to apply the

58a
focus test to claims under the ATS. In RJR Nabisco,
the Court applied the Morrison focus test to the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”) and reiterated that Morrison reflects a twostep inquiry regarding extraterritoriality. Id. at
2103. The Court further stated that “Morrison and
Kiobel [also] reflect a two-step framework for
analyzing extraterritoriality issues.” Id. at 2101.
Because RJR Nabisco has indicated that the twostep framework is required in the context of ATS
claims, we apply it here. See Miller v. Gammie,
335 F.3d at 893. First, we determine “whether the
[ATS] gives a clear, affirmative indication that it
applies extraterritorially.” RJR Nabisco, 136 S. Ct.
at 2101. The Court in Kiobel II already answered
that the “presumption against extraterritoriality
applies to claims under the ATS, and that nothing in
the statute rebuts that presumption.” Kiobel II,
569 U.S. at 185.
Because the ATS is not extraterritorial, then at the
second step, we must ask whether this case involves
“a domestic application of the statute, by looking to
the statute’s ‘focus.’” RJR Nabisco, 136 S. Ct. at
2101. Defendants insist that any acts of assistance
that took place in the United States are irrelevant
because the extraterritoriality analysis should focus
on the location where the principal offense took place
or the location the injury occurred, rather than the
location where the alleged aiding and abetting took
place. We disagree.
The focus of the ATS is not limited to principal
offenses. In Mastafa v. Chevron Corp., the Second

59a
Circuit held that “the ‘focus’ of the ATS is on . . .
conduct of the defendant which is alleged by plaintiff
to be either a direct violation of the law of nations
or . . . conduct that constitutes aiding and abetting
another’s violation of the law of nations.” 770 F.3d
at 185 (emphasis added); see also Adhikari v. Kellogg
Brown & Root, Inc., 845 F.3d 184, 199 (5th Cir.
2017) (stating that aiding and abetting conduct
comes within the focus of the ATS). We also hold
that aiding and abetting comes within the ATS’s
focus on “tort[s] . . . committed in violation of the law
of nations.” 28 U.S.C. § 1350.
As part of the step two analysis, we then determine
“whether there is any domestic conduct relevant to
plaintiffs’ claims under the ATS.” Adhikari, 845
F.3d at 195. Under RJR Nabisco, “if the conduct
relevant to the statute’s focus occurred in the United
States, then the case involves a permissible domestic
application even if other conduct occurred abroad.”
RJR Nabisco, 136 S. Ct. at 2101 (emphasis added).
In Mastafa, the Second Circuit held that the
following constituted “specific, domestic conduct”:
“Chevron’s [Iraqi] oil purchases, financing of [Iraqi]
oil purchases, and delivery of oil to another U.S.
company, all within the United States, as well as the
use of a New York escrow account and New Yorkbased ‘financing arrangements’ to systematically
enable illicit payments to the Saddam Hussein
regime that allegedly facilitated that regime’s
violations of the law of nations.” Mastafa, 770 F.3d
at 195.

60a
In Licci by Licci v. Lebanese Canadian Bank, SAL,
the Second Circuit again held that the Lebanese
Canadian Bank’s (“LCB”) “provision of wire transfers
between Hezbollah accounts” through a United
States bank constituted domestic conduct which
rebutted the presumption against extraterritoriality.
834 F.3d 201, 214–15, 219 (2d Cir. 2016). There,
LCB made “numerous New York-based payments
and ‘financing arrangements’ conducted exclusively
through a New York bank account.” Id. at 217
(citing Mastafa, 700 F.3d at 191).
Like in Mastafa and Licci, plaintiffs have alleged
that defendants funded child slavery practices in the
Ivory Coast.
Specifically, plaintiffs allege that
defendants provided “personal spending money to
maintain the farmers’ and/or the cooperatives’
loyalty as an exclusive supplier.” Because we are
required to “draw all reasonable inferences in favor”
of plaintiffs, Mujica v. Airscan, Inc., 771 F.3d 580,
589 (9th Cir. 2014), we infer that the personal
spending money was outside the ordinary business
contract and given with the purpose to maintain
ongoing relations with the farms so that defendants
could continue receiving cocoa at a price that would
not be obtainable without employing child slave
labor. Contrary to the district court’s reasoning,
providing personal spending money to maintain
relationship above the contract price for cocoa is not
ordinary business conduct, and is more akin to
“kickbacks.” Mastafa, 770 F.3d at 175. Defendants
also had employees from their United States
headquarters regularly inspect operations in the
Ivory Coast and report back to the United States

61a
offices, where these financing decisions, or “financing
arrangements,” originated. Licci by Licci, 834 F.3d
at 217 (citing Mastafa, 770 F.3d at 191). In sum, the
allegations paint a picture of overseas slave labor
that defendants perpetuated from headquarters in
the United States. “This particular combination of
conduct in the United States . . . is both specific and
domestic.” Id. at 191. We thus hold that foregoing
narrow set of domestic conduct is relevant to the
ATS’s focus.
III. Aiding And Abetting Claim
Defendants invite us to rule in the alternative that
plaintiffs have not sufficiently alleged the elements
of aiding and abetting. We think it unnecessary to
reach that issue at this time. As we have explained,
Jesner changed the legal landscape on which
plaintiffs constructed their case. The operative
complaint names several foreign corporations as
defendants, and plaintiffs concede those defendants
must be dismissed on remand.
The operative
complaint also discusses defendants as if they are a
single bloc—a problematic approach that plaintiffs
would do well to avoid. In light of Jesner, it is not
possible on the current record to connect culpable
conduct to defendants that may be sued under the
ATS.
As we observed in Nestle I, “[i]t is common practice
to allow plaintiffs to amend their pleadings to
accommodate changes in the law, unless it is clear
that amendment would be futile.” See Nestle I, 766
F.3d at 1028 (citations omitted). We are mindful
that this case has lingered for over a decade, and

62a
that delay does not serve the interests of any party.
But we cannot conclude that amendment would be
futile, so we remand with instructions that plaintiffs
be given an opportunity to amend their complaint.
On remand, plaintiffs must remove those defendants
who are no longer amenable to suit under the ATS,
and specify which potentially liable party is
responsible for what culpable conduct.
CONCLUSION
For the reasons set forth above, we REVERSE the
district court and REMAND to allow plaintiffs to
amend their complaint to specify whether aiding and
abetting conduct that took place in the United States
is attributable to the domestic corporations in this
case.
_____________

SHEA, District Judge:
I concur in the result.

63a
APPENDIX C
_____________
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
_____________
JOHN NESTLE, et al.
v.
NESTLE, S.A., et al.
_____________
Case No.: CV 05-5133-SVW-MRW
_____________
Filed: March 2, 2017
_____________
STEPHEN V. WILSON, U.S. District Judge
_____________
Proceedings: IN CHAMBERS ORDER
GRANTING MOTION TO DISMISS [211][212]
I.

INTRODUCTION

On September 8, 2010, this Court issued an order
dismissing Plaintiffs’ First Amended Complaint. See
Doe v. Nestlé, S.A., 748 F. Supp. 2d 1057 (C.D. Cal.
2010) (“2010 Order”).
The Court found that
Plaintiffs failed to adequately allege either the actus
reus or mens rea necessary to sustain their
complaint. Id. at 1111. The Court also found that
corporations cannot be sued for aiding and abetting

64a
under the Alien Tort Stature (“ATS”). Id. at 1144.
Further, the Court dismissed Plaintiffs’ state law
claims and claims premised on the Trafficking
Victims Protection Act. See id. at 1113, 1120-24.
On September 4, 2014, the Ninth Circuit reversed
this Court in Doe I v. Nestlé USA, Inc., 766 F.3d
1013, 1016-18 (9th Cir. 2014) (“Nestlé”). The Ninth
Circuit reversed this Court’s mens rea ruling and the
finding that corporations cannot be sued for aiding
and abetting under the ATS. Id. at 1023, 1026. The
Ninth Circuit further considered the Supreme Court
case Kiobel v. Royal Petroleum Co., 133 S. Ct. 1659
(2013), which was decided after this Court’s 2010
Order. The Ninth Circuit allowed Plaintiffs an
opportunity to amend their complaint on the issues
of extraterritoriality in light of Kiobel and actus reus.
The Plaintiffs did so.
The instant motions to dismiss are premised on
two main arguments: that Plaintiffs’ claim is
deficient because it seeks an impermissible
extraterritorial application of the ATS, and because
it fails to allege the requisite actus reus.1 This Court
finds that the complaint seeks an impermissible
extraterritorial application of the ATS, and thus the
Court does not reach the merits of Defendants’
remaining arguments.

1

Defendants also argue that Plaintiffs lack Article III
standing and that the complaint makes improper “lump
allegations” against Defendants as a whole without
distinguishing which Defendant committed which action.

65a
II.

The Alien Tort Stature

The Supreme Court in Kiobel applied the
presumption against extraterritoriality to the ATS,
and further stated that “where the claims touch and
concern the territory of the United States, they must
do so with sufficient force to displace the
presumption.” Kiobel, 133 S. Ct. at 1669 (citing
Morrison v. National Australia Bank Ltd., 561 U.S.
247, 130 S. Ct. 2869, 2883-2888 (2010)).2 In Nestlé,
the Ninth Circuit found that Kiobel put forth a new
“touch and concern” test specific to ATS claims. See
Nestlé, 766 F.3d at 1028. The Court found it
imprudent to “attempt to apply and refine the touch
and concern test” set forth in Kiobel. Id. The Court
further stated that Morrison is “informative
precedent for discerning the content of the touch and
concern standard,” but that Kiobel did not ultimately
incorporate Morrison’s “focus” test. Id. Further, the
Ninth Circuit called the touch and concern test
“amorphous”. Id.
In Mujica, another ATS case decided five weeks
after Nestlé, the Ninth Circuit majority did not cite
Nestlé.
See generally, Mujica v. AirScan Inc.,
771 F.3d 580 (9th Cir. 2014). However, the Mujica
Court also had no need to fully develop the “touch
and concern” test since it found that “Plaintiffs’
claims exclusively concern conduct that occurred in
Colombia.” Id. at 592 (finding the allegations of
2

The Kiobel Court provided no further explanation of this
language, other than adding “mere corporate presence” is not
enough. See Kiobel, 133 S. Ct. at 1669.

66a
domestic conduct “speculation” that was “not an
adequate basis on which to allow Plaintiffs’ claim to
go forward.”). The Court looked at whether there
was a “nexus between Plaintiffs’ claims and this
country”. Id. at 594. Presumably, this decision left
undisturbed Nestlé’s conclusion that Kiobel did not
incorporate Morrison.3
Nestlé’s conclusion that the Morrison focus test did
not apply to ATS claims is in irreconcilable conflict
with subsequent Supreme Court and Ninth Circuit
cases. 4
In RJR Nabisco, Inc. v. European
Community, 136 S. Ct. 2090 (2016), the Court
further elaborated on the presumption. Referring to
Morrison and Kiobel, the Court stated that “[t]wice
in the past six years we have considered whether a
federal statute applies extra territorially.” Id. at
2100.
It then plainly set forth the two-step
framework for extraterritoriality issues:
Morrison and Kiobel reflect a two-step
framework for analyzing extra territoriality
issues. At the first step, we ask whether the
3

The Mujica Court cited to Morrison only for the proposition
that U.S. corporate citizenship is not sufficient, on its own, to
displace the presumption against extraterritoriality.
See
Mujica, 771 F.3d at 595.
4
When an intervening Supreme Court case “undercut[s] the
theory or reasoning underlying the prior circuit precedent in
such a way that the cases are clearly irreconcilable”, a district
court must follow the Supreme Court. Miller v. Gammie, 335
F.3d 889, 900 (9th Cir. 2003). Further, “the issues decided by
the higher court need not be identical in order to be
controlling.” Id.

67a
presumption against extraterritoriality has
been rebutted—that is, whether the statute
gives a clear, affirmative indication that it
applies extraterritorially. We must ask this
question regardless of whether the statute in
question regulates conduct, affords relief, or
merely confers jurisdiction. If the statute is
not extraterritorial, then at the second step we
determine whether the case involves a
domestic application of the statute, and we do
this by looking to the statute’s “focus.” If the
conduct relevant to the statute’s focus
occurred in the United States, then the case
involves a permissible domestic application
even if other conduct occurred abroad; but if
the conduct relevant to the focus occurred in a
foreign country, then the case involves an
impermissible extraterritorial application
regardless of any other conduct that occurred
in U.S. territory.
Id. at 2101. This Court interprets RJR according to
its plain language, which is in irreconcilable conflict
with the Ninth Circuit’s holding in Nestlé. Whereas
the Ninth Circuit held that Kiobel did not
incorporate Morrison’s “focus” test, the RJR Court
clarified that “[b]ecause ‘all the relevant conduct’ [in
Kiobel] regarding those violations ‘took place outside
the United States,’ [ ] we did not need to determine,
as we did in Morrison, the statute’s ‘focus.’ ” Id.
(internal citations and quotation marks omitted).
The Court reads this sentence as declaring that if
some relevant conduct did occur in the United
States, the Kiobel Court would have “needed” to

68a
determine the ATS’ focus. Further, RJR expressly
put forward its “two-step framework for analyzing
extraterritoriality issues”. See id. Even if the Kiobel
Court was unclear about adopting Morrison’s “focus”
test, this passage from RJR is extremely clear: the
two-step framework applies.
In Trader Joe’s, relying on RJR, the Ninth Circuit
said: “We determine whether any statute, including
the Lanham Act, reaches foreign conduct by applying
a two-step framework.” Trader Joe’s Company v.
Hallatt, 835 F.3d 960 (9th Cir. 2016) (citing RJR,
136 S.Ct. at 2101) (emphasis added). Thus, the
Ninth Circuit expressly held that RJR’s two-step
framework applies to any statute. The word “any”
should be given its ordinary meaning: this is the
approach the Ninth Circuit takes for every statute,
whether
conduct-regulating
or
jurisdictional,
including the ATS.
Plaintiffs somehow characterize RJR as supporting
the Ninth Circuit’s decision in Nestlé. See dkt. 222,
Pl. Opp’n, at 20.
Plaintiffs argue that RJR
“specifically stated that Kiobel is different, and it
was not the ATS’ focus that determined ‘relevant
conduct.’ ” Id. Plaintiffs argue that “RJR’s dictum
thus affirms Nestlé’s conclusion that Kiobel and
Morrison may have a relationship of informative
precedent, but they are different tests.” Id. The
Court disagrees. The RJR Court paired Kiobel with
Morrison to create the “two-step” framework.
Contrary to Plaintiffs’ assertion, RJR does not
specifically state the ATS is different. Certainly,
RJR did not say that “it was not the ATS’ focus that

69a
determined ‘relevant conduct’ ”—or make any
decision on the ATS’ focus—because the RJR Court
recognized there had been no reason to do so. See
RJR, 136 S. Ct. at 2101. If Plaintiffs’ argument was
adopted, this Court would essentially be holding that
a multi-factored test explicitly set down by the
Supreme Court can be cut and parsed based on
which factors the Supreme Court ultimately relies on
in its analysis. Plaintiffs cite no authority that a
Supreme Court decision can be trimmed down in
such a manner.
Therefore, this Court will apply the “focus” test to
the claims at issue.5 However, as explained below,
even if the Court were to find RJR and Trader Joe’s
to be reconcilable with Nestlé, it would still dismiss
Plaintiffs’ claims based on the Ninth Circuit’s
development of the “touch and concern” test.

5

This Court found support for its conclusion from the Fifth
Circuit case Adhikari v. Kellogg Brown & Root, Inc., 845 F.3d
184 (5th Cir. 2017).
In this case, the Fifth Circuit
acknowledged a circuit split between the Ninth (finding Kiobel
did not incorporate Morrison), the Second (finding it did), and
the Eleventh (using an “amalgamated” approach). Id. at 19495. The Fifth Circuit then stated it had “not yet entered the
jurisprudential fray surrounding Kiobel” but, instead of doing
so, concluded that RJR—”which was issued after the foregoing
circuit court opinions”—was determinative. See id. at 195. The
dissent agreed that “RJR Nabisco sets forth a two-step
framework.” Adhikari, 845 F.3d at 208 (Graves, J., dissenting)
(dissenting from the analysis under that framework).

70a
III. THE ATS FOCUS TEST
Since the Ninth Circuit disavowed the “focus” test,
this Court will rely on out-of-circuit precedent which
provides a clear framework for applying the “focus”
test to ATS cases. The “focus” of the ATS is the
“conduct that violates international law, which the
ATS ‘seeks to “regulate” ’ by giving federal courts
jurisdiction over such claims.” See Adhikari v.
Kellogg Brown & Root, Inc., 845 F.3d 184, 197 (5th
Cir. 2017) (quoting Morrison, 561 U.S. at 267); see
also Mastafa v. Chevron Corp., 770 F.3d 170, 186 (2d
Cir. 2014) (finding the “focus” of the ATS to be “the
conduct of the defendant which is alleged by plaintiff
to be either a direct violation of the law of nations ...
[or] aiding and abetting another’s violation.”). The
conduct at issue here, forced child labor, is
indisputably a violation of international law. See
Nestlé, 766 F.3d at 1022. Further, “aiding and
abetting a crime is itself a crime.” Doe I v. Nestlé
USA, Inc., 788 F.3d 946, 948 (9th Cir. 2015) (denying
rehearing en banc) (Bea, J. dissenting); see also
Nestlé, 766 F.3d at 1023-27 (analyzing aiding and
abetting liability under the ATS); Mastafa, 770 F.3d
at 185. Thus, the “focus” in this case is the conduct
of Defendants that aided and abetted forced child
labor in Côte d’Ivoire.
This Court should then isolate the “relevant
conduct” constituting Defendants’ aiding and
abetting of forced child labor. See Mastafa, 770 F.3d
at 185 (“a district court must isolate the ‘relevant
conduct’ in a complaint.”); see also Nestlé, 766 F.3d at
1028 (“Morrison may be informative precedent for

71a
discerning the content of the touch and concern
standard.”) (emphasis added). The Court should
then decide if “all the relevant conduct took place
outside the United States.” See Kiobel, 133 S. Ct. at
1669; see also Mastafa, 770 F.3d at 182 (asking
whether
the
presumption
is
“self-evidently
dispositive” or whether further analysis is required)
(citing Morrison, 561 U.S. at 266). If so, the case is
dismissed. See, e.g., Kiobel, 133 S. Ct. at 1669. If
some relevant conduct took place in the United
States, it must “touch and concern” the United
States with “sufficient force to displace the
presumption against extraterritoriality.” See id.; see
also Mujica, 771 F.3d at 591; Mastafa, 770 F.3d at
185-86.
IV. ANALYSIS
For the first step of the “focus” test, isolating
relevant conduct, this Court looks to five specific
actions Defendants took that Plaintiffs allege touch
and concern the United States with sufficient force
to displace the presumption: (1) U.S. based decisionmaking; (2) the provision of funds originating in the
U.S.; (3) the U.S. companies furnishing “additional
supplies” and “extensive training” to cocoa fanners in
Côte d’Ivoire; (4) publishing statements in the U.S.
that Defendants are against child slavery; and (5)
lobbying efforts in the U.S. against a bill that
Plaintiffs allege “would have required Defendants’

72a
imported cocoa to be ‘slave free,’ ” see dkt. 222, Pl.
Opp’n, at 17.6
A.

Whether Some
Domestically

Conduct

Occurred

In Kiobel, a foreign defendant engaged in actions
abroad that injured then-foreign plaintiffs (plaintiffs
moved to the United States after their injuries
accrued). See Kiobel, 133 S. Ct. at 1662-63. Thus,
all relevant conduct occurred outside the United
States. Id. at 1669. However, “[i]t is a rare case . . .
that lacks all contact with the territory of the United
States.” Morrison, 561 U.S. at 249 (emphasis in
original). This is not a rare case. The conduct of
Defendants shows at least some contact with the
United States, and so further analysis is required.
B.

Further Analysis

The Court finds that the five actions listed above
are insufficient to displace the presumption.
1.

Allegations (1), (2), and (3)

The first three actions—(1) U.S. based decisionmaking; (2) provision of funds originating in the
U.S.; and (3) furnishing additional supplies and
training from the U.S.—are all synonymous with the
fact that Defendants are U.S. based corporations.
These are all activities that ordinary international
businesses engage in. and thus do not “touch and
6

Further, the Court will consider Defendants’ U.S.
citizenship as a factor, but not dispositive. See Mujica,
771 F.3d at 594.

73a
concern” the United States with any more force than
Defendants’ mere citizenship status.
This Court notes that more than ordinary business
conduct was required in all cases in which the
presumption was displaced. Compare Al Shimari v.
CACI Premier Technology, Inc., 758 F.3d 516, 530-31
(4th Cir. 2014) (presumption displaced when
defendants “encouraged” then employees in Abu
Ghraib to commit acts of torture and “covered up”
the misconduct), and Krishanti v. Rajaratnam, No.
2:09-CV-05395 JLL, 2014 WL 1669873, *10 (D.N.J.
Apr. 28, 2014) (presumption displaced when
defendants created corporations in the United States
in order to directly fund an overseas terrorist
organization and were “a source for money” to bribe
U.S. officials), and Doe v. Exxon Mobil Corp., 2015
WL 5042118, *14 (D.D.C. July 6, 2015) (presumption
displaced when U.S. located defendants “planned
and authorized” the deployment of foreign military
personnel and gave them supplies directly used to
commit the underlying violations), with Doe I v.
Cisco Sys., Inc., 66 F. Supp. 3d 1239, 1246 (N.D. Cal.
2014) (finding the presumption not displaced when
defendants planned and sold a “Golden Shield”
security system with knowledge that it would
facilitate the Chinese government’s human rights
abuses), and Doe v. Drummond Co., 782 F.3d 576,
598 (11th Cir. 2015) (finding presumption not
displaced when U.S. corporation made funding and
policy decisions domestically, but the specific
decisions to aid human rights abuses were made in
Colombia), and Adhikari, 845 F.3d at 198-99
(presumption not displaced for direct liability under

74a
ATS even when defendant “transferred payments to
[underlying perpetrators] from the United States,
using New York Banks” because plaintiffs “failed to
connect the alleged international law violations to
these payments” and also finding leave to amend to
add claims for aiding and abetting would be futile).
The presumption has also been displaced when the
tortious conduct itself was planned in the United
States. See, e.g., Sexual Minorities Uganda v. Lively,
960 F. Supp. 2d 304, 322 (D. Mass. 2013) (Defendant
planned and managed from the United States a
“campaign of repression” against LGBTI individuals
in Uganda); Exxon Mobil Corp., WL 5042118 at *1
(“Exxon exercised substantial control over the
activities of these soldiers, including approving and
planning specific operations and deployment
locations.”)
Plaintiffs’ allegations in this case represent
ordinary business conduct, and there are no
allegations that Defendants planned or directed the
use of forced child labor from the United States—or
that Defendants planned or directed the underlying
violations at all. Instead, Defendants here had
legitimate business relations with overseas parties.
The fact those parties then used the profits of these
business relations to engage in extraterritorial
violations of the law of nations does not displace the
presumption. See, e.g., Drummond, 782 F.3d at 598
(finding the presumption not displaced despite

75a
noting that “funding and policy decisions” were made
in United States).7
2.

Allegation
(4):
Publishing
Statements in the U.S.

Plaintiffs argue that Defendants published in the
U.S. “specific, false assurances to consumers which
beguiled them into continuing to support Defendants
and the slave-holding farms.” Pl. Opp’n, at 16.
7

The Plaintiffs rely on two cases, Mastafa and Licci, in which
they argue the presumption was displaced merely due to funds
being paid to perpetrators abroad that originated in the United
States. These cases are distinguishable, and neither of them
displace the presumption by merely relying on ordinary
business conduct. In Mastafa, defendants created a banking
scheme to facilitate illegal payments to Saddam’s regime which
violated the United Nations’ sanctions. Mastafa, 770 F.3d at
195. The court found that since defendants “attempt[ed] to
skirt the sanctions regime”, and that the “financing
arrangements in New York allowed the oil purchasers to
conceal the true nature of the oil purchase”, the presumption
was sufficiently displaced. Id. at 190. Thus, this case relied on
more than ordinary business conduct to displace the
presumption.
In Licci, the defendants made substantial financial
contributions to Hezbollah through New York banks. Licci v.
Lebanese Canad. Bank, SAL, 834 F.3d 201, 215 (2d Cir. 2016).
These banking services directly funded rocket attacks in which
the plaintiffs were injured. Id. As in Mastafa, these actions
independently violated the law. See id. (“the bank violated
various terrorist financing and money laundering laws in
carrying out the transfers”). Again, this case relied on more
than ordinary business conduct to displace the presumption.
Plaintiffs in the case before this Court do not allege that
Defendants engaged in any similar independently illegal
activity in furnishing funds to the underlying perpetrators.

76a
Plaintiffs are referencing the publications by
Defendants which state they are against child labor
and hold then cocoa suppliers to high standards,
including a prohibition against child labor. See
Second Amended Complaint (“SAC”) ¶¶ 51-61. The
Court disregards these allegations because they fail
basic pleading standards, and fail to be “relevant
conduct” under the “focus” inquiry.
All of Plaintiffs’ injuries occurred between 1994 –
2001. SAC ¶¶ 70-75. The publications referenced in
the complaint are either not dated, or occurred in
2005 and 2006. See SAC ¶¶ 52-59. Thus, the
complaint fails to plausibly allege how statements
made years after Plaintiffs’ injuries could have aided
and abetted such injuries. The allegation that these
were “false assurances” is a claim of fraud, yet the
pleadings do not satisfy Rule 9(b). There are no
allegations explaining how these statements were
fraudulent.
Further, the allegation that these
publications beguiled consumers is conclusory.
As a second, independent reason to disregard these
claims, they fail to be “relevant conduct” under the
“focus” test. The first step in the “focus” analysis is
to isolate “relevant conduct”. See Mastafa, 770 F.3d
at 185-86. The “focus” of the ATS is the “conduct
that violates international law.” See Adhikari, 845
F.3d at 197 (quoting Morrison, 561 U.S. at 267).
Here, the Court must isolate conduct that aids and
abets the direct perpetrators of forced child labor in
Côte d’Ivoire. Thus, this Court need not scrutinize
all conceivable domestic conduct of a defendant that
mentions or references child labor. There are no

77a
allegations that these publications helped the
perpetrators commit the underlying human rights
abuses. Plaintiffs cite no law that U.S. publications
made to inform U.S. consumers of international
human rights abuses aid and abet those overseas
human rights abuses.8
3.

Allegation (5): Lobbying Efforts

Finally, Plaintiffs argue that Defendants’ conduct
“touches and concerns” the United States because
“Defendants spent millions of dollars within the
United States lobbying to destroy a bill that . . .
would have required Defendants’ imported cocoa to
be ‘slave free’ ”. Pl. Opp’n, at 17. 9 Plaintiffs’
allegations are not “relevant conduct” under the
“focus” test because Plaintiffs do not plausibly plead
how these lobbying efforts aided and abetted the
underlying perpetrators. The cases Plaintiffs rely on
are distinguishable because they describe conduct

8

The Court could imagine a scenario in which the
publications prevented a loss of revenue to Defendants that
would have decreased Defendants’ purchases from the
underlying perpetrators, harming the revenues of the farms
that use forced child labor and, presumably, decreasing then
need for child laborers. There are two problems with this
scenario: (1) it was not plead, and (2) it ultimately relies on the
same allegations, discussed and dismissed above, that since
finances to the perpetrators originated in the U.S. the
presumption should be displaced.
9

The bill would have given $250,000 to the FDA to create a
“slave free” label that the FDA could then put on chocolate
products. H. Amend. 142. H.R. 2330 (2001) (in 147 Cong. Rec.
H3781 (daily ed. June 28, 2001)).

78a
beyond the ordinary course of business.
In
Rajaratnam, the court considered as one of four
factors that defendants used money to bribe United
States officials in an attempt to remove a terrorist
organization from the U.S.’s official list of Foreign
Terrorist Organizations. Rajaratnam, WL 1669873
at *10. In Mastafa, Chevron and BNP created a
complex scheme to make illicit surcharge payments
that skirted the U.N. sanctions regime. See Mastafa,
770 F.3d at 190. There are no allegations in this
case that Defendants acted inappropriately in then
lobbying efforts. 10 Lastly, Plaintiffs rely on Al
Shimari for the argument that a claim touches and
concerns the United States when “Congress had
indicated a statutory will to prohibit the harm in
question.” See Pl. Opp’n, at 17 (citing Al Shimari,
758 F.3d at 531). Even if the Court accepted this
proposition, it hurts Plaintiffs’ case. Congress did
not adopt the bill that would have allowed the FDA
to label chocolate as “slave free”. Instead, Congress’
“will” was to let the Harkin-Engel Protocol control.
Lastly, even if these lobbying efforts are considered
“relevant conduct”, such conduct without more would
not “touch and concern” the United States with
sufficient force to displace the presumption.11
10
Though in briefing Plaintiffs’ counsel states that
Defendants “dissembled” Congress, there are no actual
allegations in the complaint that Defendants misled Congress
in any way.
11

Further, the Court notes a similar timing issue to these
allegations. The injuries of five of the six Plaintiffs occurred
before 2001, when the bill was proposed in the House of
Representatives. The sixth Plaintiff left the forced labor camps

79a
The Court does not rely on policy in reaching its
conclusions. See Mujica, 771 F.3d at 596 (stating
that policy arguments in analyzing the ATS are “not
for us” to consider) (citing Cardona v. Chiquita
Brands Int’l, Inc., 760 F.3d 1185, 1191 (11th Cir.
2014)).
Nonetheless, the Court notes that
entertaining Plaintiffs’ allegations here could chill
corporate speech due to fear that lobbying efforts
would open the door to liability for any international
human rights abuse that a plaintiff speculates a
proposed bill could have prevented.12 Even worse,
relying on corporate social responsibility programs
as “relevant conduct” would also chill corporations
from creating these programs. Corporations would
be incentivized to allow human rights abuses to
occur without shedding light on the issue or trying to
in 2001. Though theoretically the passage of this bill could
have had some impact on preventing harm to the sixth Plaintiff
(presuming
an
expeditious
passage
and
immediate
implementation). Plaintiffs’ allegations do not lead to this
plausible inference.
12

Defendants argue these lobbying efforts are protected by
the First Amendment. See, e.g., Def. Cargill Reply, at 14. The
Court need not decide such First Amendment issues here, see
Lively, 960 F. Supp. 2d at 329 (deferring First Amendment
issue for summary judgment), but notes that Defendants make
a strong case that lobbying would be protected. See United
States v. Wallace, 531 F.3d 504, 506 (7th Cir. 2008) (“People are
entitled to lobby for favorable laws; the first amendment
protects self-interested campaigning.”). Plaintiffs make the
argument, however, that “criminal aiding and abetting is not
protected by the First Amendment.” Pl. Opp’n, at 17 n.4
(quoting Lively, 960 F. Supp. 2d at 329). Also, this Court notes
that the Ninth Circuit relied on these same lobbying activities
in its analysis of mens rea in Nestlé, 766 F.3d at 1025.

80a
combat it out of fear they will displace the
presumption and be held responsible.
C.

“Touch and Concern” Test

Even if the Court found that RJR and Trader Joe’s
were reconcilable with Nestlé, the Court would still
find Plaintiffs’ allegations insufficient. In such a
case, the Court would follow the legal precedent of
the Ninth Circuit in Nestlé and Mujica. However, it
is unclear how the “amorphous” “touch and concern”
test would significantly differ from the “focus”
analysis. Nestlé did not expound on the “touch and
concern” test other than finding that Morrison would
be “informative precedent for discerning the content
of the touch and concern standard” and that the test
is “amorphous”. See Nestlé, 766 F.3d at 1028. The
Mujica Court had no need to fully develop the “touch
and concern” test since it found that “Plaintiffs’
claims exclusively concern conduct that occurred in
Colombia.” Mujica, 771 F.3d at 592 (finding the
allegations of domestic conduct “speculation” that
was “not an adequate basis on which to allow
Plaintiffs’ claim to go forward.”). However, the Court
looked at whether there was a “nexus between
Plaintiffs’ claims and this country”, and found that
the only such “nexus” was the fact that defendants
were U.S. corporations. Id. at 594. The Court found
that U.S. corporate citizenship was a factor, but not
sufficient. Id. at 595. Finally, the Mujica Court
firmly instructed courts to not consider policy in
their analysis. Id. at 596 (“ ‘the determination of
foreign policy goals and the means to achieve them is
not for us . . . The federal courts cannot exercise

81a
jurisdiction under the ATS beyond the limits that
Congress has prescribed, no matter how wellintentioned our motives for doing so.’ ”) (citing
Cardona, 760 F.3d at 1191). The “nexus” language
in Mujica and the instruction in Nestlé that
“Morrison may be informative precedent for
discerning the content of the touch and concern
standard” (emphasis added) both sound very similar
to “focusing” on the “relevant conduct” underlying
the aiding and abetting claim. Even presuming,
however, this Court considers a broad factual
analysis examining all the circumstances around the
claims, as Plaintiffs suggest (Pl. Opp’n, at 9 (citing
Al Shimari, 758 F.3d at 527-28)), the Court would
still find Plaintiffs’ complaint lacking.
This Court need not look much farther than Mujica
to determine that the allegations here fail to meet
the “touch and concern” test. The Mujica Court
looked for a “nexus” between Plaintiffs’ claims and
the United States. Mujica, 771 F.3d at 594. Despite
the fact that defendants were U.S. corporations,
alleged to have made actions and decisions in the
United States which included a contract made in the
U.S. in which defendant AirScan would provide
security for defendant Occidental in Colombia, the
Court dismissed the claims. Id. at 596.13

13
Plaintiffs sought leave to amend, likely to allege the similar
“financial or managerial connection between the corporate
facilities in our country and the [extraterritorial] events,” id. at
619 (Zilly, J., concurring in part and dissenting in part), that
Plaintiffs allege here. But the Court found such an amendment
would be futile. Id. at 593 (finding amendment futile despite

82a
In this case, Plaintiffs do not allege much more
than the claims easily dismissed in Mujica. Even
considering Defendants’ lobbying efforts, this is not
the type of conduct that would displace the
presumption, since holding as much would displace
the presumption for nearly all, if not all,
international corporations. See Morrison, 561 U.S.
at 266 (the presumption is not a “craven watchdog”
that “retreat[s] to its kennel whenever some
domestic activity is involved in the case,”) (emphasis
in original). Plaintiffs ask this Court to further
consider
that
Defendants
are
very
large
corporations. See Pl. Opp’n, at 19 (describing Nestlé
USA as “one of the largest food and beverage
companies in the United States” and Cargill as “one
of the largest private corporate providers of food and
agricultural products and services in the country”).
Yet Plaintiffs cite no other case, and this Court finds
none, in which the size of the U.S. based corporation
is a relevant factor under any ATS test.
Thus, the Court finds that even considering all
domestic
factors,
Plaintiffs’
allegations
are
essentially that Defendants are U.S. corporations
(that, unsurprisingly, provide legitimate funds and
supplies to then operations overseas) and that
Defendants had “general corporate supervision” over
subsidiaries in Côte d’Ivoire. See Balintulo v. Ford
Motor Co., 796 F.3d 160, 168 (2d Cir. 2015)
“acknowledge[ing] that Kiobel worked a significant change in
the legal prerequisites for an extraterritorial ATS claim, and
that such intervening changes in the law often warrant
granting parties leave to amend.”).

83a
(“Allegations of general corporate supervision are
insufficient to rebut the presumption against
extraterritoriality and establish aiding and abetting
liability under the ATS.”). These allegations do not
“touch and concern” the United States with sufficient
force to displace the presumption.
D.

Leave to Amend

Again, the Court need look no further than Mujica
to dismiss this case without leave to amend. “This is
not a case in which the parties have had no
opportunity to respond to an intervening change in
Supreme Court law.” Mujica, 771 F.3d at 593. In
Mujica, plaintiffs were able to respond to Kiobel
through a reply brief in which they devoted 15 pages
to Kiobel’s touch and concern test, and oral argument
“held eleven months after Kiobel was decided.” Id.
(emphasis in original).
In this case. Plaintiffs were given a much greater
opportunity.
They amended their complaint to
account for Kiobel and had full briefing, including
supplemental briefs, since Kiobel. Plaintiffs also
filed then SAC after RJR. Thus, this Court does “not
believe that granting Plaintiffs leave to amend would
serve any purpose.” See Mujica, 771 F.3d at 593
(citing Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir.
1995)) (“Futility of amendment can, by itself, justify
the denial of ... leave to amend.”).
V.

CONCLUSION

For the foregoing reasons, the motion to dismiss is
GRANTED without leave to amend. The prevailing

84a
party shall submit a proposed judgment consistent
with this order.

